<html>
<title> - NUCLEAR ENERGY RISK MANAGEMENT</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                     NUCLEAR ENERGY RISK MANAGEMENT

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON INVESTIGATIONS AND OVERSIGHT

                             JOINT WITH THE

                 SUBCOMMITTE ON ENERGY AND ENVIRONMENT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                          FRIDAY, MAY 13, 2011

                               __________

                           Serial No. 112-18

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
66-222                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         DAVID WU, Oregon
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               DANIEL LIPINSKI, Illinois
W. TODD AKIN, Missouri               GABRIELLE GIFFORDS, Arizona
RANDY NEUGEBAUER, Texas              DONNA F. EDWARDS, Maryland
MICHAEL T. McCAUL, Texas             MARCIA L. FUDGE, Ohio
PAUL C. BROUN, Georgia               BEN R. LUJAN, New Mexico
SANDY ADAMS, Florida                 PAUL D. TONKO, New York
BENJAMIN QUAYLE, Arizona             JERRY McNERNEY, California
CHARLES J. ``CHUCK'' FLEISCHMANN,    JOHN P. SARBANES, Maryland
    Tennessee                        TERRI A. SEWELL, Alabama
E. SCOTT RIGELL, Virginia            FREDERICA S. WILSON, Florida
STEVEN M. PALAZZO, Mississippi       HANSEN CLARKE, Michigan
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY
                                 ------                                

              Subcommittee on Investigations and Oversight

                   HON. PAUL C. BROUN, Georgia, Chair
F. JAMES SENSENBRENNER, JR.,         DONNA F. EDWARDS, Maryland
    Wisconsin                        ZOE LOFGREN, California
SANDY ADAMS, Florida                 BRAD MILLER, North Carolina
RANDY HULTGREN, Illinois             JERRY McNERNEY, California
LARRY BUCSHON, Indiana                   
DAN BENISHEK, Michigan                   
VACANCY                                  
RALPH M. HALL, Texas                 EDDIE BERNICE JOHNSON, Texas
                                 ------                                

                 Subcommittee on Energy and Environment

                   HON. ANDY HARRIS, Maryland, Chair
DANA ROHRABACHER, California         BRAD MILLER, North Carolina
ROSCOE G. BARTLETT, Maryland         LYNN C. WOOLSEY, California
FRANK D. LUCAS, Oklahoma             BEN R. LUJAN, New Mexico
JUDY BIGGERT, Illinois               PAUL D. TONKO, New York
W. TODD AKIN, Missouri               ZOE LOFGREN, California
RANDY NEUGEBAUER, Texas              JERRY McNERNEY, California
PAUL C. BROUN, Georgia                   
CHARLES J. ``CHUCK'' FLEISCHMANN,        
    Tennessee                            
RALPH M. HALL, Texas                 EDDIE BERNICE JOHNSON, Texas


                            C O N T E N T S

                          Friday, May 13, 2011

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Paul Broun, Chairman, Subcommittee on 
  Investigations and Oversight, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    11
    Written Statement............................................    12

Prepared Statement by Representative Donna F. Edwards............    12
    Written Statement............................................    14

Statement by Representative Andy Harris, Chairman, Subcommittee 
  on Energy and Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    15
    Written Statement............................................    17

                               Witnesses:

Dr. Brian Sheron, Director, Office of Nuclear Regulatory 
  Research, Nuclear Regulatory Commission
    Oral Statement...............................................    18
    Written Statement............................................    20
    Biography....................................................    28

Mr. Lake Barrett, Principal, L. Barrett Consulting, LLC
    Oral Statement...............................................    30
    Written Statement............................................    32
    Biography....................................................    36

Dr. John Boice, Scientific Director, International Epidemiology 
  Institute
    Oral Statement...............................................    38
    Written Statement............................................    42
    Biography....................................................    47

Mr. Dave Lochbaum, Director, Nuclear Safety Project, Union of 
  Concerned Scientists
    Oral Statement...............................................    51
    Written Statement............................................    53
    Biography....................................................    84

             Appendix I: Answers to Post-Hearing Questions

Dr. Brian Sheron, Director, Office of Nuclear Regulatory 
  Research, Nuclear
    Regulatory Commission........................................   216

Mr. Lake Barrett, Principal, L. Barrett Consulting, LLC             246

Dr. John Boice, Scientific Director, International Epidemiology 
  Institute                                                         249

            Appendix II: Additional Material for the Record

Statement of Mr. Peter B. Lyons, Assistant Secretary for Nuclear 
  Energy,
    U.S. Department of Energy....................................   258

  ...............................................................      
  ...............................................................      
  ...............................................................      
  ...............................................................      
  ...............................................................      
  ...............................................................      
  ...............................................................      
  ...............................................................      
  ...............................................................      
  ...............................................................      
  ...............................................................      
  ...............................................................      
  ...............................................................      
  ...............................................................      
  ...............................................................      
  ...............................................................      
  ...............................................................      
  ...............................................................      
  ...............................................................      
  ...............................................................      
  ...............................................................      
  ...............................................................      
  ...............................................................      
  ...............................................................      


                       HEARING ON NUCLEAR ENERGY



                            RISK MANAGEMENT

                              ----------                              


                          FRIDAY, MAY 13, 2011

                  House of Representatives,
               Subcommittee on Investigations and Oversight
                                             joint with the
                    Subcommittee on Energy and Environment,
               Committee on Science, Space, and Technology,
                                                    Washington, DC.

    The Subcommittees met, pursuant to call, at 9:04 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Paul Broun 
[Chairman of the Subcommittee on Investigations and Oversight] 
presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY



                     U.S. HOUSE OF REPRESENTATIVES



                     Nuclear Energy Risk Management

                          friday, may 13, 2011

                        10:00 a.m. to 12:00 p.m.

                   2318 rayburn house office building

    On Friday, May 13, 2011 at 10:00 a.m. the House Science, Space, and 
Technology Subcommittee on Investigations and Oversight & Subcommittee 
on Energy and Environment will hold a joint hearing entitled, ``Nuclear 
Energy Risk Management.'' The Committee on Science, Space, and 
Technology has jurisdiction over all energy research, development, and 
demonstration projects and all federally owned or operated nonmilitary 
energy laboratories. \1\ The purpose of the hearing is to examine 
nuclear energy safety, risk assessment, public health protection, and 
associated scientific and technical policy issues in the United States 
in light of the earthquake and tsunami in Japan.
---------------------------------------------------------------------------
    \1\  Additionally, the Committee has jurisdiction over all 
environmental research and development, and the commercial application 
of energy technology, as well as all scientific research, development 
and demonstrations and projects. In addition to its legislative 
jurisdiction, the Committee is also tasked with the special oversight 
function of reviewing and studying on a continuing basis laws, 
programs, and Government activities relating to nonmilitary research 
and development.

---------------------------------------------------------------------------
Witnesses

    <bullet>  Dr. Brian Sheron, Director, Office of Nuclear Regulatory 
Research, Nuclear Regulatory Commission

    <bullet>  Mr. Lake Barrett, Principal, LBarrett Consulting, LLC

    <bullet>  Dr. John Boice, Scientific Director, International 
Epidemiology Institute

    <bullet>  Mr. Dave Lochbaum, Director, Nuclear Safety Project, 
Union of Concerned Scientists

Overview

    In the United States, 104 operating nuclear reactors currently 
supply approximately 20 percent of U.S. electricity. \2\ The majority 
of nuclear reactors came online throughout the 1970's and 80's, with 
the newest nuclear plant beginning generation in 1996. Currently, the 
Nuclear Regulatory Commission (NRC) is considering license applications 
for several new nuclear plants that industry is seeking to bring online 
over the coming decade. Southern Company is furthest along in this 
process, and is seeking a license from NRC to construct and operate two 
new nuclear reactors at its Vogtle site near Augusta, Georgia. These 
reactors would be the first in a new generation of nuclear plants in 
the United States.
---------------------------------------------------------------------------
    \2\  ``Nuclear Energy Quick Facts.'' Nuclear Energy Institute. 9 
May 2011. http://www.nei.org/filefolder/Nuclear_Energy_Quick_Facts.pdf.
---------------------------------------------------------------------------
    The U.S. nuclear industry has experienced significant advancements 
in reactor safety and risk mitigation since the construction of the 
previous reactor. Recent events have refocused attention to the need 
for continual attentiveness to these issues.

    Review of Japan

    On March 11, 2011, a magnitude 9.0 earthquake struck just off 
Japan's east coast. The earthquake was the fourth largest recorded in 
the last century. \3\ Compounding the devastation of the earthquake, a 
massive tsunami followed shortly after the initial earthquake and 
struck Japan's coast with little preparation time. The earthquake and 
resulting tsunami generated widespread destruction throughout the 
Japanese islands and is estimated to have killed over 10,000 people. 
Aftershocks continued for weeks impeding humanitarian response efforts.
---------------------------------------------------------------------------
    \3\  ``Largest Earthquakes in the World Since 1900.'' U.S. 
Geological Survey. 9 May 2011. http://earthquake.usgs.gov/earthquakes/
world/10_largest_world.php.
---------------------------------------------------------------------------
    The earthquake triggered the automatic shutdown of 11 of Japan's 55 
operating nuclear power plants, as designed. Within close proximity to 
the earthquake's epicenter stood three sites with nuclear reactors, 
Onagawa, Fukushima Daiichi, and Fukushima Daini. Of the six nuclear 
units located at the Fukushima Daiichi site, three were in operation on 
March 11 while the remaining three units were shut down for inspections 
and maintenance.
    While further investigation is necessary to assess the specific 
consequences of the earthquake inside the reactors, it is believed all 
of the Daiichi reactors responded to the earthquake as intended. The 
site, cut off from the electric grid due to the earthquake, operated 
during this period as expected with the onsite backup diesel generators 
powering the cooling system for each reactor. Approximately one hour 
after the earthquake, an estimated 14 meter tsunami reached the 
Fukushima Daiichi site, overwhelmed the six meter high barrier, flooded 
the generators, swept away the diesel fuel tanks and eliminated all 
backup cooling systems located at the station (figure 1).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Lacking the ability to cool the reactors, Tokyo Electric Power 
Company (TEPCO), the owner of the Daiichi reactors, immediately began 
to experience severe difficulties associated with rising temperatures 
in the reactors. Absent primary and secondary cooling systems, TEPCO 
began to cool the reactor cores by pumping seawater into the reactors. 
Lacking the necessary information on the status of the reactor cores, 
water levels in the units dropped, resulting in partial exposure of 
fuel rods inside the reactor vessel (figure 2). As the fuel rods were 
exposed, the fuel rod's zirconium cladding reacted with water and 
generated hydrogen, which accumulated within the unit. The hydrogen 
buildup within the reactors ultimately led to explosions in Units 1, 2 
and 3 within days of the tsunami and removed the secondary containment 
structures of those units.
    In addition to the difficulties TEPCO faced stabilizing the cooling 
systems for Units 1, 2 and 3, the spent fuel pool located inside Unit 4 
experienced problems. Unit 4 was undergoing maintenance at the time of 
the earthquake and had offloaded additional fuel rods in the spent fuel 
pool. While details are still not clear, in the days following the 
earthquake multiple fires ignited inside Unit 4 as a result of problems 
with the spent fuel pool. Investigation into the cause of the fires and 
specific spent fuel pool issues in Unit 4 are ongoing.
    TEPCO continues to pump freshwater into the reactors at Units 1, 2 
and 3. Further evaluation of the site's infrastructure is necessary 
prior to reconnecting electricity to the reactor and stabilizing the 
reactor cooling process. TEPCO is shooting water aimed at Unit 4's 
spent fuel pool to ensure the pool is adequately filled. Radiation 
levels surrounding the reactors remain elevated; however, they have 
notably decreased from spikes following the initial explosions.
    Public Health Implications

    Immediately following the tsunami and explosions at the Fukushima 
Daiichi reactors, the Japanese government ordered the evacuation of a 
20 kilometer (12 mile) area surrounding the plant and directed those 
living within 30 kilometers (18 miles) to stay indoors. Japanese health 
authorities immediately began testing Japanese citizens, particularly 
children, for traces of radiation, but found only minimal levels of 
exposure. As of April 27, 2011, over 175,000 people have been screened. 
Radiation levels in the food supply were also evaluated and some 
restrictions were placed on distribution. Testing and evaluation of 
public health is ongoing and continue to be closely monitored. Workers 
at the Fukushima Daiichi plant were exposed to higher than normal 
radiation, though under the emergency dose limit set by the Japanese 
government and not enough to induce sickness. TEPCO rotates employees 
once the workers reach the permitted dose threshold.
    As a consequence ofthe overheating of reactor fuel at Fukushima 
Daiichi Units 1, 2 and 3 and overheating within spent fuel storage 
areas, radiation was released into the atmosphere and environment. In 
the weeks following the release, traces of radiation were detected over 
portions of the United States. The trace amounts of radiation led to 
public discussion regarding the advisability of purchasing potassium 
iodide (KI) pills to prevent uptake of radioactive potassium and the 
possibility of radioactive material entering the food chain. \4\ Of 
particular note, despite a lack of evidence suggesting human health 
would be impacted in the United States, U.S. Surgeon General Dr. Regina 
Benjamin noted in response to questioning about citizens stocking up on 
potassium iodide that such actions were ``definitely appropriate'' 
precautions to take.
---------------------------------------------------------------------------
    \4\  For more information on radiation health implications and dose 
levels see Congressional Research Service Report titled, ``The Japanese 
Nuclear Incident: Technical Aspects,'' R41728
---------------------------------------------------------------------------
    The spread of radiation has refocused attention on the need for 
appropriate evacuation plans in the event of an accident or natural 
disaster at a nuclear facility, for appropriate plans for the return 
ofpopulations to evacuated areas, the efficacy of KI distribution and 
long-term health implications for exposure to low-dose radiation. \5\
---------------------------------------------------------------------------
    \5\  Mason, Julie. ``Fears Cause Run on Pills.'' Politico 16 Mar 
2011. 9 May 2011. http://www.politico.com/politico44/perm/0311/
a_run_on_iodide_9de5fce3-9807-44b1-9721-48d1b9abab2e.html.

---------------------------------------------------------------------------
    Evaluations of U.S. nuclear safety

    The nuclear industry and governmental bodies consistently review 
nuclear reactor safety and risk mitigation measures in the United 
States. However, the 1979 accident at Three Mile Island and the attacks 
of September 11, 2001, in particular, spurred significant reviews of 
and enhancements to nuclear reactor safety.
    Previous reviews provide context for current and future evaluations 
of nuclear energy, such as the review currently underway by the NRC in 
response to the incident in Japan.

    Three Mile Island

    On March 28, 1979, a series of mechanical and human errors led to 
the most significant accident in the history of the U.S. nuclear power 
industry. For reasons still unknown, water pumps feeding the generator 
shut down. Because operators had closed valves on the secondary water 
system for routine maintenance, the system could not pump any water and 
the reactor began to overheat. A relief valve opened automatically to 
relieve primary system pressure; however, the valve failed to close 
once pressure had been released, allowing coolant water to escape. 
Compounding the problem was the failure of plant operators to recognize 
the opened valve and a misinterpretation of readings on the control 
panel. \6\ Once operators realized the problem, serious damage had 
already occurred. When the core was opened four years later it was 
discovered that half the fuel rods had melted--a partial meltdown. \7\
---------------------------------------------------------------------------
    \6\  ``Backgrounder on the Three Mile Island Accident.'' Nuclear 
Regulator Commission. http://www.nrc.gov/reading-rm/doc-collections/
fact-sheets/3mile-isle.html. Retrieved May 5, 2011.
    \7\  Gilinsky, Victor (March 23, 2009). ``Behind the scenes of 
Three Mile Island''. Bulletin of the Atomic Scientists. http://
thebulletin.org/web-edition/features/behind-the-scenes-of-three-mile-
island. Retrieved March 31, 2009.
---------------------------------------------------------------------------
    In response to Three Mile Island, President Carter chartered the 
Kemeny Commission to investigate the accident. The Commission's 
recommendations covered a wide range of issues. One recommendation of 
note was for the nuclear power industry to establish a program that 
``specifies appropriate safety standards including those for 
management, quality assurance, and operating procedures and practices, 
and that conducts independent evaluations.'' \8\ Further, ``there must 
be a system gathering, review, and analysis of operating experience at 
all nuclear power plants coupled with an industry-wide international 
communications network to facilitate the speedy flow of this 
information to affected parties.'' \9\
---------------------------------------------------------------------------
    \8\  ``Report Of The President's Commission On The Accident At 
Three Mile Island.'' 1979. 9 May 2011. http://www.pddoc.com/tmi2/
kemeny/utility_and_its_suppliers1.htm.
    \9\  Ibid
---------------------------------------------------------------------------
    As a consequence of that recommendation, the nuclear power industry 
established the Institute of Nuclear Power of Operations (INPO) and 
directed INPO to ``promote the highest levels of safety and 
reliability--to promote excellence--in the operation of commercial 
nuclear power plants.'' \10\ INPO continues to actively engage in a 
partnership with industry to provide valuable safety and risk 
mitigation expertise.
---------------------------------------------------------------------------
    \10\  ``About.'' Institute of Nuclear Power Operations. Web. 9 May 
2011. http://www.inpo.info/AboutUs.htm.

---------------------------------------------------------------------------
    September 11, 2001

    After the attacks of September 11, 2001 the NRC issued a series of 
orders and advisories to its license holders directing them on specific 
threats and security enhancements. For example, the NRC has issued 
orders requiring license holders to increase specific security 
measures, including: ``increased patrols, augmented security forces and 
capabilities, additional security posts, installation of additional 
physical barriers, vehicle checks at greater stand-off distances, 
enhanced coordination with law enforcement and military authorities, 
and more restrictive site access controls.'' In addition, the NRC has 
made several changes to its Design Basis Threat (DBT), first 
implemented after the Three Mile Island accident in 1979. Although the 
DBT is not public, it outlines specific threats and characteristics of 
adversaries. In April 2003 and March 2006, the NRC made additions to 
the DBT with lessons learned from September 11. In January 2007, the 
DBT was further amended to consolidate previous additions and 
incorporate specific threat factors outlined in the Energy Policy Act 
of 2005. \11\
---------------------------------------------------------------------------
    \11\  ``NRC's Response to the 9/11/01 Events.'' Nuclear Regulatory 
Commission. 25 Apr 2011. http://www.nrc.gov/security/faq-911.html.

---------------------------------------------------------------------------
    DOE and NRC Nuclear Energy Research Programs

    Both the United States Department of Energy (DOE) and the NRC fund 
extensive research programs across a wide variety of topics. DOE and 
NRC conduct significant research focused on all components of nuclear 
facility safety, risk analysis, and reactor design. Given recent 
events, the manner in which government research programs inform reactor 
safety and regulations are integral to ensure public health and safety.

    Nuclear Regulatory Commission

    The Office of Nuclear Regulatory Research (NRR) is NRC's primary 
research entity, coordinating research and informing regulatory 
decisions for the organization. The NRR provides all encompassing 
research relating to reactor safety, operational regulations, 
environmental radiological impact, and performance and reliability. The 
NRR office consists of Program Management, Policy Development and 
Analysis Staff; the Division of Engineering; Division of Systems 
Analysis; and Division of Risk Analysis. The primary responsibility of 
NRR is to provide ``leadership and plan, recommend, manage, and 
implement programs of nuclear regulatory research and interface with 
all NRC Offices and the Commission on research issues.'' \12\
---------------------------------------------------------------------------
    \12\  All NRR and Division responsibilities are summarized from: 
United States. Office of Nuclear Material Safety and Safeguards., 20 
Apr 2011. Web. 9 May 2011. http://nrc.gov/about-nrc/organization/
nmssfuncdesc.html.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

---------------------------------------------------------------------------
    Among NRR's tasks, the Office:

        <bullet>  Recommends regulatory actions to resolve ongoing and 
        potential safety issues for nuclear power plants and other 
        facilities regulated by the NRC;

        <bullet>  Conducts research to reduce uncertainties in areas of 
        potentially high safety or security risk or significance;

        <bullet>  Develops the technical basis for risk-informed, 
        performance-based regulations in all areas regulated by the 
        NRC;

        <bullet>  Leads the agency's initiative for cooperative 
        research with DOE and other Federal agencies, the domestic 
        nuclear industry, U.S. universities, and international 
        partners;

        <bullet>  Maintains technical capability to develop information 
        for resolution of nuclear safety and security issues and 
        provides technical support and consultation to the Program 
        Offices in the specialized disciplines involved in these issues 
        and;

        <bullet>  Collects and analyzes operational data; assesses 
        trends in performance from this data; evaluates operating 
        experience to provide insights into and improve the 
        understanding of the risk significance of events, precursors 
        and trends; and produces and disseminates periodic performance 
        indicator and Accident Sequence Precursor (ASP) Reports. \13\
---------------------------------------------------------------------------
    \13\  Ibid
---------------------------------------------------------------------------
    The various divisions provide valuable, informative research 
relating to reactor safety and risk mitigation. For example, the 
Division of Systems Analysis conducts research to quantify margins, 
reduce unnecessary burden, and reduce uncertainties for areas of 
potentially high risk or safety significance, supports identification 
of accident phenomena and assessment of anticipated safety issues in 
new and advanced reactors, and develops technical bases for dose limits 
in regulations. The Division of Risk Analysis develops, recommends, 
plans, and manages research programs relating to probabilistic risk 
assessments (PRA); develops and uses PRA-based methodologies, models, 
and analysis techniques, as well as other risk assessment techniques to 
determine overall risk; and supports agency efforts to use risk 
information in all aspects of regulatory decision making.

    Department of Energy--Office of Nuclear Energy

    The primary mission of the DOE Office of Nuclear Energy (NE) is to 
``advance nuclear power as a resource capable of meeting the Nation's 
energy, environmental, and national security needs by resolving 
technical, cost, safety, proliferation resistance, and security 
barriers through research, development, and demonstration as 
appropriate.'' \14\ The Fiscal Year (FY) 2011 continuing resolution 
provided $737 million for the Office of Nuclear Energy.
---------------------------------------------------------------------------
    \14\  ``Mission Statement.'' U.S. Department of Energy. 9 May 2011. 
http://nuclear.energy.gov/neMission.html.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Unlike the NRC, NE's research, development, and deployment programs 
are not consolidated within one office, but rather undertaken 
throughout all of NE's program offices. Safety and risk mitigation 
activities span fuel cycle research, advanced reactor research, and 
light water reactor sustainability research. For example, future 
reactor designs have passive cooling systems to cool nuclear reactor 
cores even in the absence of electricity. The Westinghouse AP1000 
reactor design, currently under consideration for licensing by the NRC, 
has a passive cooling system and Small Modular Reactors also 
incorporate the technology.
    Idaho National Laboratory (INL) is DOE's lead nuclear energy 
research and development facility. Primary NE tasks undertaken at INL 
include nuclear safety analysis, irradiation services, nuclear 
operations, management of spent nuclear fuel, and biocorrosion offuels. 
\15\ These efforts are carried out through funding from the various NE 
research programs. Located at INL are a munber of facilities providing 
world class research capabilities for DOE, such as the Advanced Test 
Reactor Complex which is also a DOE National Scientific User Facility. 
Significant additional NE R&D is carried out at other Federal 
facilities, such as Oak Ridge National Laboratory, Argonne National 
Laboratory, Los Alamos National Laboratory, and Savannah River Site.
---------------------------------------------------------------------------
    \15\  ``Nuclear Energy.'' Idaho National Laboratory. 9 May 2011. 
https://inlportal.inl.gov/portal/server.pt/community/nuclear_energy/
277.
---------------------------------------------------------------------------
    DOE's Office of Health, Safety and Security includes the Risk 
Assessment Technical Experts Working Group to assist DOE with the use 
of ``quantitative risk assessment in nuclear safety related 
activities.'' These activities ``help DOE ensure that risk assessments 
supporting nuclear safety decisions are conducted in a consistent 
manner, or appropriate quality, properly tailored to the needs of the 
decisions they are intended to support and documented.'' \16\
---------------------------------------------------------------------------
    \16\  ``Risk Assessment Technical Experts Working Group.'' U.S. 
Department of Energy, Office of Health, Safety and Security. 9 May 
2011. http://www.hss.energy.gov/nuclearsafety/ns/rawg/.
---------------------------------------------------------------------------
    The Modeling and Simulation Energy Innovation Hub, located at Oak 
Ridge National Laboratory, will create a Virtual Reactor (VR) to model 
and simulate a nuclear reactor. The VR aims to enhance the scientific 
understanding of fission and reduce uncertainties associated with 
safety and risk. The capabilities can be used to assess and improve 
safety of existing reactors. \17\
---------------------------------------------------------------------------
    \17\  ``Advanced Modeling and Simulation.'' U.S. Department of 
Energy, Office of Nuclear Energy. 9 May 2011. http://www.ne.doe.gov/
AdvModelingSimulation/casl.html.

    Need for future reactor safety research, risk assessment, and 
---------------------------------------------------------------------------
accident mitigation

    The incident at the Fukushima Daiichi reactors has highlighted the 
need for continual examination of safety and risk assessment in the 
United States. Policies and priorities undergoing heightened assessment 
include:

        <bullet>  Spent fuel management. What is the best and most 
        secure method of storing spent nuclear fuel? In a spent fuel 
        pool or dry cask storage? In a single centralized storage 
        facility, such as the proposed, but now cancelled Yucca 
        Mountain repository, or onsite at individual reactor locations, 
        including at sites containing decommissioned reactors?

        <bullet>  Risk assessment modeling and risk mitigation. How can 
        risk uncertainty be reduced to the greatest degree and 
        incorporated into risk mitigation measures? What are the 
        necessary inputs to produce the most realistic risk assessment 
        models?

        <bullet>  Reactor design. What design features may warrant 
        incorporation into the new reactors to make nuclear reactors 
        inherently more safe and resilient to natural disasters? Do 
        different reactor technologies offer additional safety and risk 
        mitigation benefits?

        <bullet>  Emergency planning. Are current Emergency Planning 
        Zones adequate? Are the lines of communication between 
        stakeholders clear and proper? Are additional steps to ensure 
        public health safety necessary?

        <bullet>  Response. How can response capabilities be improved 
        in the event of a disaster? What R&D is needed in this area?
    Chairman Broun. Good morning. This joint hearing of the 
Subcommittee on Investigations and Oversight and the 
Subcommittee on Energy and Environment will come to order. I 
welcome everyone here to this hearing, ``Nuclear Energy Risk 
Management.'' In front of you are packets containing the 
written testimony, biographies, and truth of testimony 
disclosures for today's witnesses.
    Before we get started, since this is a joint hearing 
involving two Subcommittees, I want to explain how we will 
operate procedurally so all Members understand how the question 
and answer period will be handled. As always, we will alternate 
between the Majority and Minority Members, and allow all 
Members an opportunity for questioning before recognizing a 
Member for a second round of questions, if we have time for the 
second round. We will recognize those Members present at the 
gavel in order of seniority on the full Committee, and those 
coming in after the gavel would be recognized in the order of 
their arrival.
    I now recognize myself for a five minute opening statement. 
I would first like to welcome our witnesses to today's hearing, 
and express my sincere appreciation for their effort in joining 
us here today.
    Risk assessment and risk management associated with nuclear 
energy are timely and important topics for the Science 
Committee to address. This topic is clearly a priority for the 
Science Committee, as two of our Subcommittees are here today 
together. While the facts and implications of the Japanese 
earthquake, tsunami, and resulting nuclear disaster are still 
being determined, it is an opportunity for us to reassess our 
Nation's current safety posture here in this country.
    After the Three Mile Island, Chernobyl, September 11, and 
several other incidents, the United States regularly revisited 
the state of our nuclear power infrastructure. Today's hearing 
is yet another opportunity to evaluate whether we, as a Nation, 
are doing everything that we can to ensure that nuclear energy 
is a safe component of our energy supply. This includes 
evaluating the current research and development portfolio for 
reactor safety, spent fuel storage, and public health 
monitoring.
    The Department of Energy was invited to this morning's 
hearing and would have provided a valuable contribution to the 
hearing. Unfortunately, they were unable to provide a witness 
here today. DoE did provide written comments, but that does not 
substitute for actually appearing. Testifying is not a 
correspondence course. The Science Committee understands the 
many demands that agency officials have on their time. As 
Members of Congress, we have similar demands. Because of this, 
the Committee provided four weeks of notice and did not request 
a specific individual, leaving that determination to DoE. 
Unfortunately, it seems as though the entire Department only 
has one individual that they believe is qualified to speak on 
the issues that we are addressing here today, and he was 
otherwise engaged for multiple days.
    While I find this troubling in and of itself, what is more 
frustrating is that this has now become a trend for this 
Administration. The TSA refused to testify at a hearing earlier 
this year before the I&O Subcommittee. Two days ago EPA refused 
to testify before the full Committee unless they could dictate 
the terms of their attendance.
    Let me be clear. This Committee is willing to work with the 
Administration to reach neutral accommodations, but it will not 
allow it to obstruct our oversight efforts. We take our 
oversight responsibilities very seriously. This 
Administration's arrogance continues to undermine its claims of 
transparency and openness, particularly when they fail to be 
accountable to Congress and to the American people. If the 
Administration is not willing to work with this Committee, we 
have several options that can compel their cooperation. 
Unfortunately, it appears that we may have to exercise those 
options in the future.
    For the witnesses that did appear today, I want to 
sincerely thank you for your cooperation.
    [The prepared statement of Dr. Broun follows:]
            Prepared Statement of Chairman Paul Broun, M.D.
    I would first like to welcome our witnesses to today's hearing and 
express my sincere appreciation for their effort in joining us here. 
Risk Assessment and Risk Management associated with Nuclear Energy are 
important and timely topics for the Science Committee to address. This 
topic is clearly a priority for the Science Committee as two of our 
Subcommittees are here together today. While the effects and 
implications of the Japanese earthquake, tsunami, and resulting nuclear 
disaster are still being determined, it is an opportunity for us to 
reassess our nation's current safety posture here in this country. 
After Three Mile Island, Chernobyl, September 11th, and several other 
incidents, the United States regularly revisited the state of our 
nuclear power infrastructure. Today's hearing is yet another 
opportunity to evaluate whether we, as a nation, are doing everything 
we can to ensure that nuclear energy is a safe component of our energy 
supply. This includes evaluating the current research and development 
portfolio for reactor safety, spent fuel storage, and public health 
monitoring.
    The Department of Energy was invited to this morning's hearing and 
would have been provided a valuable contribution to the hearing. 
Unfortunately, they were unable to provide a witness to appear today. 
DOE did provide written comments, but that does not substitute for 
actual appearing. Testifying is not a correspondence course. The 
Science Committee understands the many demands that agency officials 
have on their time, as Members of Congress have similar demands. 
Because of this, the Committee provided four weeks of notice, and did 
not request a specific individual, leaving that determination to DOE. 
Unfortunately, it seems as though the entire Department only has one 
individual they believe is qualified to speak to the issues we are 
addressing today - and he was otherwise engaged for multiple days. 
While I find this troubling in and of itself, what is more frustrating 
is that this has now become a trend with this Administration. The TSA 
refused to testify at a hearing earlier this year before the I&O 
Subcommittee, and two days ago EPA refused to testify before the Full 
Committee unless they could dictate the terms of their attendance.
    Let me be clear, this Committee is willing to work with the 
Administration to reach mutual accommodations, but it will not allow it 
to obstruct our oversight efforts. We take our oversight 
responsibilities very seriously. This Administration's arrogance 
continues to undermine its claims of transparency and openness, 
particularly when they fail to be accountable to Congress and the 
American people. If the Administration is not willing to work with this 
Committee, we have several options that can compel their cooperation. 
Unfortunately, it appears we may have to exercise those options in the 
future.
    For the witnesses that did appear today, I want to sincerely thank 
them for their cooperation. I look forward to their testimony, and will 
now recognize Ms. Edwards, the Ranking Member of the Investigations and 
Oversight Subcommittee for an Opening Statement.

    Chairman Broun. The Chair now recognizes Ms. Edwards for an 
opening statement.
    Ms. Edwards. Thank you, Mr. Chairman, and good morning. I 
look forward to today's hearing and thank the witnesses, 
because I think for far too long we have heard just a drum beat 
about how nuclear energy is both safe and efficient, with 
electricity produced ``too cheap to meter.'' I want to thank 
the Chairman for giving Members a chance to get to the bottom 
of these claims and others.
    The idea of nuclear power as a cost effective source of 
power can be traced back to a statement in 1954 by the then-
Chairman of the Atomic Energy Commission, who suggested that 
``Our children will enjoy in their homes electrical energy too 
cheap to meter.'' Unfortunately that same year, of course, 
General Electric ran an advertisement which I am attaching to 
my statement--it is quite interesting--from 1954 that 
optimistically trumpeted how the industry would be on its own 
two feet within five to ten years. That was in 1954. After 
suggesting that the big question on atomic energy was whether 
it could be done economically, the ad says, and I quote, ``We 
already know the kinds of plants which will be feasible, how 
they will operate, and we can estimate what their expenses will 
be. In five years, certainly within ten, a number of them will 
be operating at about the same cost of those using coal. They 
will be privately financed and built without government 
subsidy.'' So here we are and it is 2011, and the reality is 
that nuclear power has always required government subsidies. In 
the almost 60 years since that ad appeared, the taxpayer has 
seen more than $80 billion spent on nuclear power research and 
development. In fact, it is the largest single energy research 
area since 1948. There are billions and billions and billions 
of dollars in other subsidies created through government 
actions designed to distort markets to give nuclear power a 
competitive edge over other sources of energy, although we are 
in a discussion now about how heavily subsidized the oil 
industry is.
    Despite decades of support, nuclear power plants are still 
unable to operate competitively in the United States energy 
market, and now we are being asked for still more subsidies to 
build another generation of plants. According to an analysis by 
the Union of Concerned Scientists, these subsidies could be 
worth twice as much as the value of the electricity produced by 
the plant. That strikes me as throwing a lot of good money 
after bad.
    We recently held a hearing on renewable energy in which the 
Majority seemed to want to make the point that subsidizing 
renewable energy would be picking winners and losers, and yet 
that same strategy that energy produced would not be 
competitive without government support is being used with 
respect to the nuclear industry.
    Well, if you truly reject such support, the nuclear power 
industry should be the poster child for an industry that needs 
government to profit up, and profit up to the tune of billions 
of dollars. I support subsidies to help emerging energy sources 
such as wind and solar and battery technologies. They deserve 
at least as much of a chance as nuclear has had, and since 
nuclear cannot stand on its own feet after 60 years, it is time 
to say enough. The public gravy train has got to come to a stop 
for now for this mature industry, and it is indeed a mature 
industry, it just can't stand on its own, and its claims of 
safety, the events of Japan's Fukushima plant illustrate how 
safety is contingent on a complex set of systems all working 
perfectly. If those systems go down, system safety starts to 
slip beyond our control. Natural disasters and human folly know 
no national bounds, and it would be beyond arrogant to think 
that something similar to Fukushima could not happen here in 
the United States.
    To avoid another accident requires aggressive regulators, 
safety-minded operators, and perfect luck. As was illustrated 
in a recent New York Times article, attached also to my 
statement, operators often confuse profit margins with safety 
margins and regulators are too passive or overwhelmed to always 
enforce accountability. In fact, there are claims that the 
regulatory agency is too cozy with the industry.
    A recent report from the Union of Concerned Scientists 
documents 14 near-misses in just the past year, including one 
at Maryland's own Calvert Cliffs plant, located approximately 
50 miles from where we sit today. Calvert Cliffs has two 
reactors. In February 2010, both reactors were automatically 
shut down. The cause of the shutdown was that water had shorted 
out a degraded piece of electric equipment that had neither 
been inspected or replaced. A subsequent study--investigation 
by the NRC revealed that the water resulted from chronic roof 
leaks. In fact, the NRC found that there were 58 outstanding 
work orders to repair roof leaks, and despite some of the 
orders being two years old, not one of them had even been 
scheduled for repair.
    Each shutdown, like the one at Calvert Cliffs, caused plant 
owners and ultimately rate payers an average of more than $1.5 
billion. Since the Three Mile Island accident, safety failures 
have resulted in plant shutdowns costing more than $80 billion. 
So we subsidize the energy--the industry's creation, the 
building of plants the production of electricity, and then we 
subsidize a failure of plant management. I think enough is 
enough, and with that, I yield.
    [The prepared statement of Ms. Edwards follows:]
          Prepared Statement by the Honorable Donna F. Edwards
    I look forward to today's hearing because for too long we have 
heard a drumbeat about how nuclear energy is both safe and efficient, 
with electricity produced ``too cheap to meter.'' I want to thank the 
Chairmen for giving Members a chance to get to the bottom of these 
claims.
    The idea of nuclear power as a cost-effective source of power can 
be traced back to a statement in 1954 by the then-Chairman of the 
Atomic Energy Commission who suggested that ``Our children will enjoy 
in their homes electrical energy too cheap to meter. . .'' That same 
year, General Electric ran an advertisement that optimistically 
trumpeted how the industry would be on its own two feet within five to 
ten years. After suggesting that the big question on atomic energy was 
whether it could be done economically, the ad says:

    ``We already know the kinds of plants which will be feasible, how 
they will operate, and we can estimate what their expenses will be. In 
five years--certainly within ten--a number of them will be operating at 
about the same cost as those using coal. They will be privately 
financed, built without government subsidy.''

    The reality is that nuclear power has always required government 
subsidies. In the almost sixty years since that ad appeared, the 
taxpayer has seen more than $80 billion spent on nuclear power research 
and development. In fact, it is the largest single energy research area 
since 1948. And there are billions and billions and billions of dollars 
in other subsidies created through government actions designed to 
distort markets to give nuclear power a competitive edge. Subsidies 
include the Price-Anderson Act, which caps nuclear plant operators 
exposure to costs that would come from an accident, loan guarantees to 
underwrite the capital costs of plants, tax exempt bonds for 
construction of public plants, no charges to plants for their use of 
water and the list goes on and on.
    Despite decades of support, nuclear power plants are still unable 
to operate competitively in the U.S. energy market. Now, we are being 
asked for still more subsidies to build another generation of plants. 
According to an analysis by the Union of Concerned Scientists, these 
subsidies could be worth twice as much as the value of the electricity 
produced by the plants. That strikes me as throwing good money after 
bad.
    We recently held a hearing on renewable energy in which the 
Majority seemed to want to make the point that subsidizing renewable 
energy would be ``picking winners and losers'' or distorting the market 
and that the energy produced would not be competitive without 
government support. Well, if you truly reject such support, the nuclear 
power industry should be the poster child for an industry that needs 
government to prop it up.
    I do not oppose subsidies to help new energy sources get on their 
feet I believe we should be investing in wind and solar and battery 
technologies and exploring other potential renewables to give them a 
chance to demonstrate their value to meeting our country's energy 
needs. They appear to be safer to the public and the environment than 
any other sources of electricity and they promise true energy 
independence without worries about proliferation of nuclear materials. 
They deserve at least as much of a chance as nuclear has had, and since 
nuclear cannot stand on its own feet after sixty years, it is time to 
say ``enough.'' The public gravy train has got to come to a stop for 
this now mature industry.
    As to c1airus of safety, the events at Japan's Fukushima plant 
illustrate how safety is contingent on a complex set of systems all 
working perfectly. If those systems go down, safety starts to slip 
beyond our control. Natural disasters and human folly know no national 
bounds and it would be beyond arrogant to think that something similar 
to Fukushima could not happen here.
    The risks posed by nuclear power are unique in their potential 
health and environmental scope. In the last thirty years, we have had 
three catastrophic accidents of varying effect: Three Mile Island, 
Chernobyl, and Fukushima. To avoid another accident requires aggressive 
regulators, safety-minded operators, and perfect luck. As was 
illustrated in a recent New York Times article, operators often confuse 
profit margins with safety margins and regulators are too passive or 
overwhelmed to always enforce accountability.
    To keep the public safe from disaster, you have to get nuclear 
plant safety right every second of every day of every year and 
everywhere. And natural disasters cannot be allowed to interfere or 
those carefully calibrated perfect systems can fail. I think that this 
is an impossible standard, but a failure once a generation or so is not 
acceptable to me. In fact, the Union of Concerned Scientists has issued 
a report documenting 14 near misses just in the past year, including 
one at Maryland's own Calvert Cliffs plant.
    Located approximately 50 miles from where we sit today, Calvert 
Cliffs has two reactors. In February 2010, both reactors were 
automatically shut down. The cause of the shut-down was that water had 
shorted out a degraded piece of electrical equipment that had neither 
been inspected nor replaced. And the water, as a subsequent NRC 
investigation revealed, was the result of chronic roof leaks. In fact, 
the NRC found that there were 58 outstanding work orders to repair roof 
leaks. Despite some of the orders being two years old, not one of them 
had even been scheduled for repair.
    I am sure that a nuclear advocate would point to Calvert Cliffs' 
automatic shutdown as a ``success.'' But such successes, in which 
safety systems shut reactors down in the face of systems operating out 
of spec, are not cost free. Each shutdown costs plant owners, and 
ultimately rate payers, an average of more than $1.5 billion dollars. 
Since the Three Mile Island accident safety failures that resulted in 
plant shutdowns cost more than $80 billion.
    So we subsidized the industry's creation, the building of plants, 
the production of electricity and then we subsidize the failures of 
plant managers.
    I think enough is enough.

    Chairman Broun. Thank you, Ms. Edwards.
    I now recognize the Chairman of the Subcommittee on Energy 
and Environment, Dr. Harris, for his opening statement.
    Dr. Harris, you are recognized for five minutes.
    Dr. Harris. Thank you very much, Mr. Chairman. I want to 
thank our witnesses also for being here today to testify on 
issues relating to nuclear energy risk management, and I do 
look forward to hearing from all your testimony.
    First I would like to echo Dr. Broun's disappointment with 
the Department of Energy's inability to provide a witness for 
the hearing. I do recognize that the head of the Office of 
Nuclear Energy was unavailable due to international travel, but 
I would hope that in a program with a budget of over $850 
million that the Department has more than one individual 
qualified to represent it before Congress.
    The purpose of this hearing is to examine nuclear energy 
safety, risk assessment, and public health protection. Nuclear 
energy is clearly an integral piece of America's energy 
portfolio today, and will probably continue to be in the 
future.
    In Maryland, my State, one-third of our electricity is 
generated by nuclear reactors, and the State is home to two 
reactors located near my district at Calvert Cliffs.
    DoE's Energy Information Administration projects that U.S. 
electricity demand will increase by 31 percent over the next 25 
years. We simply have to get this electricity from somewhere, 
and nuclear energy may indeed provide a clean, safe, and 
affordable source of base load power to meet this demand. 
However, as with all critical energy sources, producing nuclear 
energy is certainly not without risk, and we must take great 
care to appropriately manage those risks. The March earthquake 
and tsunami in Japan clearly serves as a stark reminder of 
this. However, it is important to note that the incident and 
response at Fukushima did not happen in a vacuum. Both the 
nuclear industry and government regulators continually assess 
safety measures and mitigate those kind of risks. Largely due 
to this diligence and attentiveness, nuclear facilities in this 
country are among the safest workplaces across all industries, 
and not a single death has been attributed to nuclear energy 
production here in the United States.
    As I hope to hear today, continued improvements in reactor 
design and operating procedures will make what is already safe 
nuclear energy even safer. To this end, I am interested in 
learning how the Federal Government can best prioritize its 
nuclear energy research programs to further reduce these risks.
    I am also interested in key policy questions associated 
with nuclear energy risk management. For example, is a 
Fukushima-like event even possible here in the U.S., given our 
regulatory environment and reactor design? Do facilities pre-
stage the necessary equipment to manage unexpected incidents? 
What are the comparative risks associated with storage of spent 
nuclear fuel scattered throughout the country or consolidated 
into centralized storage, such as Yucca Mountain.
    Finally, as a medical doctor by training, I believe it is 
important to objectively and responsibly discuss potential 
radiologic effects on public health. Senior government 
officials encouraging Americans to stockpile potassium iodide 
pills due to detection of miniscule traces of radiation is 
simply not responsible, since potassium iodide can obviously 
have harmful results if those pills are unnecessarily taken. 
This kind of alarmism also feeds unnecessary public fears about 
nuclear energy potentially harming its future viability.
    I hope the witnesses can help provide perspective on this 
issue. I look forward to hearing today's discussion surrounding 
these topics. Again, I thank you all for appearing. I thank the 
Chairman for holding the hearing, and I yield back.
    [The prepared statement of Dr. Harris follows:]
               Prepared Statement of Chairman Andy Harris
    I thank our witnesses for being here today to testify on issues 
relating to Nuclear Energy Risk Management and I look forward to 
hearing your testimony. First, I would like to echo Dr. Broun's 
disappointment with the Department of Energy's inability to provide a 
witness for this hearing. I recognize that the head of the Office of 
Nuclear Energy was unavailable due to international travel, but I would 
hope that with a program budget of over $850 million, the Department 
has more than one individual qualified to represent it before Congress.
    The purpose of this hearing is to examine nuclear energy safety, 
risk assessment, and public health protection. Nuclear energy is an 
integral piece of America's energy portfolio today and will continue to 
be in the future. In Maryland, one third of our electricity is 
generated by nuclear reactors and the state is home to two reactors 
located near my district, at Calvert Cliffs.
    DOE's Energy Information Administration projects that U.S. 
electricity demand will grow by 31 percent in the next 25 years. We 
have to get this electricity from somewhere, and nuclear energy 
provides a clean, safe, and affordable source of baseload power to meet 
this demand.
    However, as with all critical energy sources, however, producing 
nuclear energy is not without risk, and we must take great care to 
appropriately manage these risks. The March earthquake and tsunami in 
Japan serves as a stark reminder of this.
    However, it is important to note that both the incident and the 
response at Fukushima did not happen in a vacuum. Both the nuclear 
industry and government regulators continually assess safety measures 
and mitigate risk. Largely due to this diligence and attentiveness, 
nuclear facilities are among the safest workplaces across all 
industries, and not a single death has ever been attributed to nuclear 
energy production in the United States. As we will hear today, 
continued improvements in reactor design and operating procedures will 
make nuclear energy even safer. To this end, I'm interested in learning 
how the Federal government can best prioritize its nuclear energy 
research to further reduce risks.
    I'm also interested in key policy questions associated with nuclear 
energy risk management. For example: Is a Fukushima-like event even 
possible in the U.S.? Do facilities pre-stage the necessary equipment 
to manage unexpected incidents? What are the comparative risks 
associated with storage of spent nuclear fuel-scattered throughout the 
country or consolidated into centralized storage, such as Yucca 
Mountain?
    Finally, as a medical doctor by training, I believe it is important 
be responsible when discussing potential radiological effects on public 
health. Senior government officials encouraging American citizens to 
stockpile potassium iodide pills due to detection of miniscule traces 
of radiation is not responsible, and can have harmful results if those 
pills are unnecessarily taken. This alarmism also feeds unnecessary 
public fears about nuclear energy, potentially harming its future 
viability. I hope the witnesses can help provide perspective on this 
issue.
    I look forward to hearing today's discussion surrounding these 
topics. Thank you and I yield back.

    Chairman Broun. Thank you, Dr. Harris.
    If there are Members who would like to submit additional 
opening statements, your statements will be added to the record 
at this point.
    At this time I would like to introduce our panel of 
witnesses. Dr. Brian Sheron, is that correct, Director, Office 
of Nuclear Regulatory Research, Nuclear Regulatory Commission; 
Mr. Lake Barrett, Principal Consultant, Barrett Consulting, 
LLC; Dr. John Boice, Scientific Director, International 
Epidemiology Institute and Professor of Medicine, Vanderbilt 
University School of Medicine; and Mr. Dave Lochbaum, Director 
of Nuclear Safety Project, Union of Concerned Scientists.
    As our witnesses should know, spoken testimony is limited 
to five minutes and I would ask you, because we are really 
pressed, we are going to have votes about 9:45 to 10 o'clock, 
so please limit your testimony to five minutes. If you can 
shave a few seconds off that, we would appreciate it, but we 
don't want to shortchange you, either. After your spoken 
testimony, Members of the Subcommittees will have five minutes 
each to ask questions. Your written testimony will be included 
in the record of the hearing.
    It is the practice of the Subcommittee on Investigations 
and Oversight to receive testimony under oath, and we will use 
that practice today as well. Do any of you have any objection 
to taking an oath? If you shake your head, it will be fine.
    Let the record reflect that all witnesses have shaken their 
heads from side to side, indicating that they have no objection 
to taking an oath.
    You may also be represented by counsel. Do any of you have 
counsel here today?
    Let the record reflect that none of the witnesses have 
counsel, indicated by them shaking their heads from side to 
side.
    If you would now please stand and raise your right hand. Do 
you solemnly swear and affirm to tell the whole truth and 
nothing but the truth, so help you God?
    Let the record reflect that all witnesses participating 
have taken the oath. Thank you. You may sit down.
    I now recognize our first witness, Dr. Brian Sheron, 
Director of the Office of Nuclear Regulatory Research at the 
Nuclear Regulatory Commission, NRC. Dr. Sheron, you are 
recognized for five minutes.

  STATEMENT OF DR. BRIAN SHERON, DIRECTOR, OFFICE OF NUCLEAR 
       REGULATORY RESEARCH, NUCLEAR REGULATORY COMMISSION

    Dr. Sheron. Thank you. Good morning Chairmen Harris and 
Broun, Ranking Members Miller and Edwards, Members of the 
Subcommittees. I am pleased to appear before you on behalf of 
the United States Nuclear Regulatory Commission, the NRC, to 
discuss the Agency's research program and our current 
activities in response to the events that have occurred at the 
Fukushima-Daiichi nuclear power plant site.
    My name is Brian Sheron. I have been the Director of the 
NRC's Office of Nuclear Regulatory Research for the past five 
years, and have been at the NRC and its predecessor agency, the 
Atomic Energy Commission, for nearly 38 years.
    The following testimony is intended to provide an overview 
of NRC's Office of Nuclear Regulatory Research, or RES, and its 
current activities, as well as provide a discussion of the 
Agency taskforce and research activities related to the 
Fukushima-Daiichi event in Japan.
    Office of Research is a major NRC program office mandated 
by Congress and created along with the NRC in 1975. The NRC's 
regulatory research program addresses issues in the areas of 
nuclear reactors, nuclear materials, and radioactive waste. My 
office plans, recommends, and implements programs of nuclear 
regulatory research, standards development, and resolution of 
generic issues for nuclear power plants and other facilities 
regulated by the NRC. There are currently about 260 staff 
members in my office.
    We do not conduct research for the primary purpose of 
developing improved technologies. That is a function that is 
more appropriately the nuclear industry's. Rather, the NRC 
conducts research to confirm that the methods and data 
generated by the industry ensure that adequate safety margins 
are maintained.
    We work with the offices that are responsible for licensing 
activities within the NRC to develop appropriate regulatory 
actions to resolve potential safety issues for nuclear power 
plants and other facilities regulated by the NRC, including 
those issues designated as generic issues. Generic issues are 
potential technical or security issues that could impact two or 
more facilities.
    My office coordinates the development of consensus and 
voluntary standards for agency use, including appointment of 
Agency staff to numerous domestic and international standards 
committees. Participation by the NRC staff in consensus 
standards development is essential because the codes and 
standards are an integral part of the Agency's regulatory 
framework.
    We have implemented over 100 international cooperative 
agreements with other nuclear regulators and international 
organizations to share information and leverage resources. We 
also participate extensively in several International Atomic 
Energy Agencies, and Organization for Economic Cooperation and 
Development Nuclear Energy Agency committees and working groups 
that facilitate the exchange of information between countries 
on topics such as risk assessment, events, and best practices.
    The NRC has a robust reactor operating experience program, 
and we have taken advantage of the lessons learned from 
previous operating experience to implement a program of 
continuous improvement for the U.S. reactor fleet. As you know, 
on Friday, March 11, 2011, an earthquake and subsequent tsunami 
occurred near the northeast coast of Japan, resulting in the 
shutdown of more than 10 reactors. From what we know now, it is 
likely that the earthquake caused the loss of normal 
alternating current power and it is likely that the reactor's 
response to the earthquake went as designed. The ensuing 
tsunami, however, caused the loss of emergency A/C power to 
four of the six units at the Fukushima site.
    The phenomena associated with the events at Fukushima 
involved numerous disciplines in which my office has expertise 
and has done substantial research. I would now like to discuss 
some of these technical areas that have been raised since the 
events.
    The Office of Research has a seismic research program that 
is currently addressing updated geological assessments, 
particularly in the central and eastern United States. We have 
also initiated a current tsunami research program in 2006, and 
our tsunami research leverages work being done at the United 
States Geological Survey and the National Oceanographic and 
Atmospheric Administration. This will help form the basis for 
NRC review of new license applications.
    We have performed significant severe accident research 
since the TMI accident to better understand the phenomena and 
improve both accident prevention and mitigation.
    The NRC has been using probabilistic risk assessment, or 
PRA methods to obtain estimates of risk associated with severe 
accidents since 1975.
    The NRC has previously studied spent fuel pool issues and 
implemented additional requirements to minimize spent fuel pool 
vulnerabilities. Following the events in Japan, we have begun 
to update spent fuel pool studies to estimate the relative 
consequence of removing older fuel from the spent fuel pool and 
placing it into dry storage, versus leaving it in the spent 
fuel pool.
    In conclusion, I want to reiterate that the NRC has a very 
robust regulatory research program that performs confirmatory 
research to allow the licensing offices to make technically-
informed regulatory decisions. The research office has 
expertise in a multitude of technical disciplines and has 
performed significant research in the past related to reactors, 
materials, and waste.
    In light of the events in Japan, the NRC has initiated a 
near-term evaluation of the event's relevance to reactors in 
the U.S. and we are continuing to gather the information 
necessary for us to take a longer, more thorough look at the 
events and their lessons for us. Based on the lessons learned 
from these efforts, we will pursue additional regulatory 
actions and research as needed to ensure the continuing safety 
of the U.S. fleet.
    Thank you.
    [The prepared statement of Dr. Sheron follows:]
  Prepared Statement of Dr. Brian Sheron, Director, Office of Nuclear 
           Regulatory Research, Nuclear Regulatory Commission
    Good morning, Chairmen Harris and Broun, Ranking Members Miller and 
Edwards, and Members of the Subcommittees. I am pleased to appear 
before you on behalf of the United States Nuclear Regulatory Commission 
(NRC) to discuss the agency's research program and our current 
activities in response to the events that have occurred at the 
Fukushima-Daiichi nuclear power plant site.
    My name is Dr. Brian Sheron, and I have been the Director of the 
NRC Office of Nuclear Regulatory Research for the past five years and 
have been at the NRC and its predecessor agency, the Atomic Energy 
Commission, for nearly 38 years.
    The following testimony is intended to provide an overview of the 
NRC's Office of Nuclear Regulatory Research (RES) and its current 
activities, as well as provide a discussion of the agency task force 
and research activities related to the Fukushima-Daiichi event in 
Japan.
    As you are aware, the NRC is an independent Federal agency 
established to license and regulate the Nation's civilian use of 
production and utilization facilities, as well as the use of byproduct, 
source, and special nuclear materials to ensure adequate protection of 
public health and safety, to promote the common defense and security, 
and to protect the environment. The NRC currently licenses, inspects, 
and assesses the performance of 104 operating nuclear power plants, as 
well as many materials licensees, fuel cycle facilities, and research 
and test reactors.
    The Office of Nuclear Regulatory Research (or RES) is a major NRC 
program office, mandated by Congress and created along with the NRC in 
1975. RES is one of the offices that reports to the Executive Director 
for Operations. RES plans, recommends, and implements programs of 
nuclear regulatory research, standards development, and resolution of 
generic safety issues for nuclear power plants and other facilities 
regulated by the NRC. The Office coordinates research activities within 
and outside the agency, including NRC participation in national and 
international volunteer standards efforts. There are currently about 
260 staff members in the office, which is organized into three 
technical divisions: the Division of Engineering, Division of Risk 
Analysis, and Division of Systems Analysis.
    RES is responsible for developing methods, technical expertise and 
computer codes that are used by the NRC to assess safety and regulatory 
issues for materials licensees, fuel cycle facilities, operating 
reactors as well as new and advanced reactor designs. We develop the 
data needed to assess these codes by conducting experiments at national 
laboratories, universities, or in collaboration with international 
organizations.
    The NRC regulatory research program addresses issues in the three 
arenas of nuclear reactors, nuclear materials, and radioactive waste. 
The research program is designed to improve the agency's knowledge 
where uncertainty exists, where safety margins are not well-
characterized, and where regulatory decisions need to be confirmed in 
existing or new designs and technologies. Typically, the regulatory 
offices approach us with an issue, and we determine how to 
appropriately resolve it through research or analysis. The majority of 
our work is this user need driven work performed in response to 
requests from our regulatory offices, as shown in the following chart:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    RES coordinates research activities with the other NRC program 
offices, as appropriate, and leads the agency's initiative for 
cooperative research with the U.S. Department of Energy (DOE) and other 
Federal agencies, the domestic nuclear industry, U.S. universities, and 
international partners. RES coordinates the development of consensus 
and voluntary standards for agency use, including appointment of agency 
staff to various standards committees. Based on research results and 
experience gained, we work with the regulatory offices to develop 
appropriate regulatory actions to resolve potential safety issues for 
nuclear power plants and other facilities regulated by the NRC, 
including those issues designated as Generic Issues (GIs). GIs are 
technical or security issues that could impact two or more facilities 
or licensees. RES also develops the technical basis for those areas 
regulated by the NRC that have risk-informed, performance-based 
regulations.
    RES supplies technical tools, analytical models, and experimental 
data needed to support the agency's regulatory decisions. RES does not 
conduct research for the primary purpose of developing improved 
technologies, a function that is more appropriately that of the 
Department of Energy or the nuclear industry. Rather, the NRC conducts 
research to confirm that the methods and data generated by the industry 
ensure that adequate safety margin is maintained.
    In addition to supporting regulation of the commercial use of 
radioactive materials to protect public health and safety and to 
protect the environment, RES is responsible for providing the technical 
basis for regulations to ensure the protection and safeguarding of 
nuclear materials and nuclear power plants in the interest of national 
security. Thus, while its primary focus is on supporting the licensing 
and regulatory process, the research conducted by and for the NRC plays 
an important role in supporting broad government-wide initiatives 
associated with national security.
    The Office of Research's staff is very well qualified and educated, 
with 30% of staff holding PhDs, and 33% of staff with master's degrees. 
The staff continues to reflect diversity in education, demographics, 
and technical disciplines. The wide range of engineering and scientific 
disciplines includes expertise in nuclear engineering, materials 
science, human factors and human reliability, health physics, fire 
protection, and probabilistic risk assessment, to name a few. It is 
this diversity in highly technical and specialized disciplines that 
allows RES to support the licensing offices as they carry out their 
licensing and regulatory tasks. Given this internal expertise, we 
perform a significant amount of research in-house. However, because we 
have more work than RES staff's capacity, we use contractors to 
supplement our work to perform research that requires special skills or 
facilities. Our staff develops the work plan and is engaged in the 
research process with the contractor throughout the entire research 
effort.
    In addition to conducting confirmatory research, RES also conducts 
forward-looking research. The objectives of forward-looking and long-
term research are to develop the technical basis to support related 
regulatory decision making. We monitor areas where the regulated 
industry may be moving and determine the technical information needed 
for future regulatory decisions to prepare the agency to respond to 
anticipated future industry requests and initiatives.
    These activities address new safety technologies or developments in 
analytical technologies or infrastructure. By their nature, these items 
span a wide range of disciplines, from risk assessment to structural 
integrity to fission product transport. Our development of data and 
assessment tools for these technologies will ensure that the agency is 
prepared to meet its future regulatory needs.
    In addition to our research efforts, the NRC cooperates with 
professional organizations that develop voluntary consensus standards 
associated with systems, structures, equipment, or materials used by 
the nuclear industry. In fiscal year 2010, 184 NRC staff members 
participated in 325 standards activities, such as membership on a 
standards-writing committee. The organizations governing these 
committees include the American Society of Mechanical Engineers (ASME), 
the National Fire Protection Association (NFPA), the American Nuclear 
Society, the Institute of Electrical and Electronics Engineers, the 
American Concrete Institute, and the National Council on Radiation 
Protection and Measurements.
    For example, ASME developed the Boiler and Pressure Vessel Code and 
the Operations and Management Code which are widely acknowledged as an 
acceptable set of standards used to design, construct, and inspect 
pressure-retaining components, including nuclear vessels, piping, 
pumps, and valves. Similarly, NFPA has developed consensus standards to 
define acceptable methods to design, install, inspect, and maintain 
fire protection systems. The NRC has incorporated into its regulations 
various standards from the groups discussed above.
    The NRC's use of voluntary consensus standards is consistent with 
statutory requirements. Participation by the NRC staff in voluntary 
consensus standards development is essential because the codes and 
standards are an integral part of the agency's regulatory framework. 
The benefits of this active involvement include cost savings, improved 
efficiency and transparency, and regulatory requirements of high 
technical quality. The agency acknowledges the broad range of technical 
expertise and experience of the individuals who belong to the many 
consensus standards organizations. Thus, participation in standards 
development minimizes the expenditure of NRC resources that would 
otherwise be necessary to provide guidance with the technical depth and 
level of detail of voluntary consensus standards.
    Over the past 35 years, RES has developed or sponsored over 40 
computer codes for use in its safety analyses. These codes are used in 
many aspects of the NRC's mission and perform wide ranging tasks 
including modeling fuel and reactor systems behavior, radiation's 
health effects, atmospheric dispersion, probabilistic risk assessment 
and more. They are shared with domestic and international counterparts 
to capture the value of a larger expert user community, which adds 
robustness to the codes and certainty to their results.
    NRC uses computer codes to model and evaluate fuel behavior, 
reactor kinetics, thermal-hydraulic conditions, severe accident 
progression, time-dependent dose for design-basis and beyond design-
basis accidents, health effects, and radionuclide release and transport 
during various operating and postulated accident conditions. Computer 
codes are validated against scaled tests and actual plan data. Results 
from such code applications support regulatory decision making in risk-
informed activities, confirmatory and exploratory analyses, review of 
licensees' codes, performance of audit calculations, and resolution of 
other technical issues to inform the NRC staff on a wide variety of 
emergent technical questions for ensuring the health and safety of the 
general public. NRC code development is focused on improving the 
realism, accuracy and reliability of code results while improving code 
usability. However, the modeling of some novel systems (e.g., medical 
isotopes production) and new and advanced reactor design (e.g., Next 
Generation Nuclear Plant) requires further code development and 
additional assessment against specific experimental data.
    Some specific examples of codes and how they are more specifically 
used in the regulatory environment are the MELCOR and MACCS2 codes. The 
MELCOR code models the progression of severe accidents in light-water 
nuclear power reactors. MELCOR models several phenomena including 
thermal-hydraulics, core heatup, containment performance, hydrogen 
production, and fission product release and transport behavior. The 
MACCS2 code is used to evaluate doses and health risks from the 
accidental atmospheric releases of radio nuclides. It is also used to 
confirm license renewal analyses regarding plant specific evaluation of 
Severe Accident Mitigation Alternatives (SAMAs) that is required as 
part of the environmental assessment for license renewal. The MACCS2 
code is also routinely used in environmental impact statements (EIS) 
supporting early site permits (ESP).
    The agency shares its codes with other organizations under various 
agreements and has organized user groups for some codes that are widely 
used. Two such programs are the Code Applications and Maintenance 
Program (CAMP) and the Cooperative Severe Accident Research Program 
(CSARP). CAMP, which has existed as a user community for almost 30 
years, includes thermal-hydraulic codes, and has members from more than 
25 nations. CSARP includes members from 20 nations who focus on the 
analysis of severe accidents using primarily the MELCOR code. Through 
the CAMP and CSARP programs, the NRC is able to share some of the 
codes' development and maintenance cost, while improving their quality 
and performance.
    RES has implemented over 100 international cooperative agreements 
with other nuclear regulators and international organizations to share 
information and leverage resources. RES also participates in several 
International Atomic Energy Agency (IAEA) and Organization for Economic 
Cooperation and Development (OECD) Nuclear Energy Agency (NEA) 
committees and working groups that develop safety standards and 
facilitate the exchange of information between countries on topics such 
as risk assessment, events and best practices. These include the IAEA 
Nuclear Safety Standards Committee, the Committee on the Safety of 
Nuclear Installations, the Working Group on Risk Assessment, and 
others. In addition, I serve as vice-Chair for the Committee on the 
Safety of Nuclear Installations at the OECD/NEA.
    The NRC has a robust reactor operating experience program, and we 
have taken advantage of the lessons learned from previous operating 
experience to implement a program of continuous improvement for the 
U.S. reactor fleet. We have learned from experience across a wide range 
of situations, including, most significantly, the Three Mile Island 
(TMI) accident in 1979. As a result of those lessons learned, we 
significantly revised emergency planning requirements and emergency 
operating procedures for licensees, and made substantive improvements 
in NRC's incident response capabilities. We also addressed many human 
factors issues regarding control room indicators and layouts, added new 
requirements for hydrogen control to help prevent explosions inside of 
containment, and created requirements for enhanced control room 
displays of the status of pumps and valves.
    Two particularly significant changes after TMI accident were the 
expansion of the Resident Inspector Program and the incident response 
program. Today, there are at least two Resident Inspectors at each 
nuclear power plant. The inspectors have unfettered access to all 
licensees' activities, and serve as NRC's eyes and ears at the power 
plant. The NRC headquarters operations center and regional incident 
response centers are prepared to respond to all emergencies, including 
any resulting from operational events, security events, or natural 
phenomena. Multidisciplinary teams in these centers have access to 
detailed information regarding licensee facilities, and access to plant 
status information through telephonic links with the Resident 
Inspectors, an automated emergency response data system, and directly 
from the licensee over the emergency notification system. NRC's 
response would include the dispatch of a site team to supplement the 
Resident Inspectors on site, and integration with the licensee's 
emergency response organization at their Emergency Offsite Facility. 
The program is designed to provide independent assessment of events, to 
ensure that appropriate actions are taken to mitigate the events, and 
to ensure that State officials have the information they would need to 
make decisions regarding protective actions.
    The NRC had a Boiling Water Reactor Mark I Containment Improvement 
Program in the 1990's, which resulted in the installation of hardened 
vent systems for containment pressure relief, as well as enhanced 
reliability of the automatic depressurization system.
    As a result of the events of September 11, 2001, we identified 
important pieces of equipment that, regardless of the cause of a 
significant fire or explosion at a plant, we want licensees to have 
available and staged in advance, as well as new procedures, training 
requirements, and policies that would help deal with a severe 
situation.
    As you know, on Friday, March 11, 2011, an earthquake and 
subsequent tsunami occurred near the northeast coast of Japan, 
resulting in the shutdown of more than 10 reactors. From what we know 
now, it appears possible that the reactors' response to the earthquake 
went according to design. The ensuing tsunami, however, likely caused 
the loss of emergency alternating current (AC) power to four of the six 
units at the Fukushima Daiichi site. It is these four units that have 
received the majority of our attention since that time. Units One, Two, 
and Three at the site were in operation at the time of the earthquake. 
Units Four, Five, and Six were in previously scheduled outages.
    Our program of continuous improvement based on operating experience 
will include evaluation of the significant events in Japan and what we 
can learn from them. We have already begun enhancing inspection 
activities through temporary instructions to our inspection staff, 
including the Resident Inspectors at each nuclear power plant and the 
region-based inspectors in our four Regional offices, to look at 
licensees' readiness to deal with both the design basis accidents and 
the beyond-design basis accidents. The information that we gather will 
be used for additional evaluation of the industry's readiness for 
similar events, and will aid in our understanding of whether additional 
regulatory actions need to be taken in the immediate term.
    The phenomena associated with the events at Fukushima-Daiichi 
involve numerous disciplines in which RES has expertise and are in 
areas where we have already done substantial analysis. I would now like 
to discuss some of these technical areas that have been raised since 
the events in Japan and discuss our related existing or planned 
research activities.
    First, the NRC has an extensive seismic research program. Seismic 
safety in the design and operation of nuclear facilities has been 
evolving since the development of the first rules and guidance for 
seismic design by the NRC's predecessor, the Atomic Energy Commission. 
In 1998, the NRC issued a policy decision to move towards a risk-
informed and performance-based regulatory framework. Risk-informed 
frameworks use probabilistic methods to assess not only what can go 
wrong, but also the likelihood of going wrong. Over the last decade, 
significant advances have been made in the ability to assess seismic 
hazards. The NRC is currently sponsoring several projects in support of 
both an updated assessment of seismic hazards in the Central and 
Eastern United States (CEUS) and an enhancement of the overall 
framework under which the hazard characterizations are developed. The 
products of these projects will be used in the determination of seismic 
hazard design levels for new reactors and are being used in a program 
to reassess seismic hazards at existing plant locations. Although no 
immediate safety issue has been identified, the NRC will take action if 
our further analysis shows that safety improvements can be justified.
    Since the 2004 Indian Ocean tsunami, significant advances have been 
made in the ability to assess tsunami hazard globally. The NRC 
initiated its current tsunami research program in 2006. It focuses on 
bringing the latest technical advances to the regulatory process and 
exploring topics unique to nuclear facilities. The tsunami research 
program focuses on several key areas: landslide-induced tsunami hazard 
assessments, support activities associated with the licensing of new 
nuclear power plants in the United States, development of probabilistic 
methods, and development of the technical basis for new NRC guidance. 
This program, which includes cooperative work with the United States 
Geological Survey (USGS) and the National Oceanic and Atmospheric 
Administration (NOAA), has already resulted in several important 
publications on tsunami hazard assessments on the Atlantic and Gulf 
Coasts of the United States. The publications and research results help 
form the basis of NRC review of new license applications. Whether 
additional work is needed for operating reactors will also be examined.
    The NRC has performed extensive research since the TMI accident to 
understand the phenomena associated with severe accidents and has 
developed analytical models that predict accident progressions and 
their consequences. This research includes test programs on zirconium 
fires, source term analysis, molten core-concrete interactions, and 
containment analyses.
    The NRC is conducting research to estimate the possible public 
health and safety consequences in the unlikely event that a severe 
accident occurs at a commercial nuclear power plant in the United 
States. The State-of-the-Art Reactor Consequence Analysis (SOARCA) 
program takes maximum advantage of extensive national and international 
reactor safety research and reflects improved plant design, operation, 
and accident management implemented over the past 25 years. Using 
computer models and simulation tools, the NRC is developing a set of 
realistic consequence estimates of accidents at two U.S. reactor sites 
representative of different reactor and containment designs used in the 
United States. The two pilot plants are a General Electric boiling-
water reactor (BWR) with a Mark I containment (Peach Bottom) and a 
Westinghouse pressurized-water reactor (PWR) with a dry, sub-
atmospheric containment (Surry). The results of the analyses are 
showing thus far that analyzed scenarios could reasonably be mitigated, 
either preventing core damage or delaying or reducing the radiation 
release. For cases assumed to proceed unmitigated, accidents appear to 
progress more slowly than previously thought and usually result in 
smaller and more delayed radiological releases than previously 
predicted.
    A Probabilistic Risk Assessment (PRA) is a structured analytical 
process that provides estimates of risk by (1) identifying potential 
initiating event scenarios that can challenge system operations, (2) 
estimating the likelihood of event sequences that lead to an adverse 
event such as core damage, containment failure, and offsite 
radiological effects; and (3) estimating the consequences associated 
with accident sequences. These rankings are very valuable in the sense 
that resources can be directed towards the major contributors to risk. 
There are three levels of PRA for nuclear power plants. Level 1 PRA 
covers the initiating event to the onset of core damage. Level 2 PRA 
covers the onset of core damage to radioactive material release to the 
environment. Level 3 PRA covers radioactive material release to offsite 
radiological consequences.
    The first study to use PRA methods to obtain more realistic 
estimates of risk associated with severe reactor accidents was 
completed in 1975. In 1988 the NRC asked the licensees to conduct 
Individual Plant Examinations to ensure that NRC's regulations were 
adequate and no undue risk was posed to the public by any plant. In 
1990, NRC completed a Level 3 PRA for five commercial nuclear power 
plants of different reactor and containment designs. Since this last 
NRC-sponsored Level 3 PRA, the design, operation, maintenance, testing, 
and inspection of NPPs and the state-of-the-art in PRA technology, and 
data have evolved considerably. Our staff therefore continues to 
improve NRC's PRA capability and risk understanding to enhance PRAs 
role in NRC's current risk-informed regulatory approach.
    The NRC has developed independent confirmatory PRA models for 
operating and new reactor nuclear plants. The NRC maintains 
Standardized Plant Analysis Risk (SPAR) models that represent the 104 
operating commercial plants in addition to 2 SPAR models for new 
reactor designs. These SPAR models are used to support a variety of NRC 
regulated activities including the reactor oversight and the accident 
precursor programs. The SPAR models are updated periodically to reflect 
plant modifications, new operating experience data, and improved risk 
modeling capabilities (e.g., support system initiating events, external 
hazards, and loss of offsite power).
    As part of the PRA program, the NRC conducts human reliability 
analysis (HRA) research to assess the human contribution to risk. We 
study human performance because it can significantly influence the 
reliability and safety of nuclear plant operations. HRA research is key 
to understanding accident sequences and appropriately representing 
their relative importance to overall risk. Research is conducted both 
domestically and internationally in cooperation with other 
organizations. In addition, the NRC participates in and I am the Board 
Chairman of the OECD/NEA Halden Reactor Project. Halden is a research 
facility in Norway that advances HRA through research. Several 
regulatory agencies and private sector companies participate in Halden 
research activities. NRC continues to study human performance in 
nuclear power plants and improve the methods for assessing human 
reliability.
    Another PRA based program that measures risk is the Accident 
Sequence Precursor (ASP) Program. The NRC established ASP in 1979 after 
the TMI accident. The ASP Program systematically evaluates U.S. nuclear 
power plant operating experience to identify, document, and rank the 
operating events most likely to lead to inadequate core cooling and 
severe core damage (precursors), given the likelihood of additional 
failures.
    The ASP Program provides (1) a comprehensive, risk-informed view of 
nuclear power plant operating experience and a measure for trending 
core damage risk; (2) a partial check on dominant core damage scenarios 
predicted by probabilistic risk assessments; and (3) provides feedback 
to regulatory activities. The NRC also uses the ASP Program to monitor 
performance against the safety goal established in the agency's 
strategic plan and report significant precursors to Congress.
    The NRC has previously studied spent fuel pool (SFP) issues and 
modified licensee requirements in various areas such as an aircraft 
impact assessment, loss of SFP cooling, modifications to assembly 
configurations, and additional requirements following the attacks of 
September 11, 2001. As a result of the recent events in Japan, an 
updated SFP safety study to estimate the relative consequences of 
removing older fuel from the SFP and placing it into dry storage versus 
leaving it in the spent fuel pool is being considered.
    Beyond the initial steps to address the experience from the events 
in Japan, the NRC staff has established a senior level agency task 
force to conduct a methodical and systematic review of our regulatory 
processes to determine whether the agency should make any improvements 
to our regulatory system and to make recommendations to the Commission 
for its policy direction. This activity will have both near-term and 
longer-term objectives.
    For the near-term effort, we have started a 90-day review. This 
review will evaluate the currently available information from the 
Japanese events to identify immediate or near-term operational or 
regulatory issues potentially affecting the 104 operating reactors in 
the United States, including their spent fuel pools. Areas of 
investigation will include: the ability to protect against natural 
disasters; response to station blackouts; severe accidents and spent 
fuel accident progression; and severe accident management issues. Over 
this 90-day period, the task force will develop recommendations, as 
appropriate, for changes to inspection procedures and licensing review 
guidance, and recommend whether generic communications, orders, or 
additional regulations are needed.
    This 90-day effort includes a briefing to the Commission after 
approximately 30 days to provide a snapshot of the regulatory response 
and the condition of the U.S. fleet based on information it has 
available at that time. This briefing, which occurred on May 12, also 
ensured that the Commission is both kept informed of ongoing efforts 
and prepared to resolve any policy recommendations that surface. 
However, over the 90-day and longer-term efforts the task force will 
seek additional stakeholder input. At the end of the 90-day period, a 
report will be provided to the Commission and to the public in 
accordance with normal Commission processes, and it will be provided to 
the Advisory Committee on Reactor Safeguards for its review. The task 
force's longer-term review will begin as soon as the NRC has sufficient 
technical information from the events in Japan.
    The task force will evaluate all technical and policy issues 
related to the event to identify additional potential research, generic 
issues, changes to the reactor oversight process, rulemakings, and 
adjustments to the regulatory framework that should be pursued by the 
NRC. The task force is also expected to evaluate potential interagency 
issues, such as emergency preparedness, and examine the applicability 
of any lessons learned to non-operating reactors and materials 
licensees. The task force is expected to seek input from stakeholders 
during this process. A report with appropriate recommendations will be 
provided to the Commission within 6 months of the start of this 
evaluation. Both the 90-day and final reports will be made publicly 
available in accordance with our regulatory decision making. The NRC 
has expertise in a multitude of technical disciplines and has performed 
significant research in the past related to reactors, materials, and 
waste. In light of the events in Japan, the NRC has initiated a near-
term evaluation of the events' relevance to the U.S. nuclear power 
plants, and we are continuing to gather the information necessary for 
us to take a longer, more thorough look at the events and their lessons 
for us. Based on the lessons learned from these efforts, we will pursue 
additional regulatory actions and research, as needed, to ensure the 
continuing safety of the U.S. fleet.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Broun. Thank you very much, Dr. Sheron.
    I now recognize our next witness, Mr. Lake Barrett, 
Principal of L. Barrett Consulting, LLC.

     STATEMENT OF MR. LAKE BARRETT, PRINCIPAL, L. BARRETT 
                        CONSULTING, LLC

    Mr. Barrett. Thank you very much, Mr. Chairman, Ms. 
Edwards, and Chairman Hall. I appreciate the opportunity to be 
here before you today.
    I would like to just quickly try to go through what 
happened at Fukushima-Daiichi plant. It is a large, six reactor 
facility on the northeast coast of Japan. On March 11, there 
was a huge earthquake. The earthquake was slightly beyond the 
design basis of the plant, but the safety systems all performed 
satisfactorily there. There was a greater-than-designed basis 
tsunami, a huge wave that surrounded the plant as you can see 
in the lower right-hand corner, and when it hit, it took out 
all the emergency A/C power in the plant. They were able to 
cool the core for about eight hours using a backup system that 
was operated with batteries. After about eight hours the 
battery power exhausted and there was no more cooling, and the 
core started to uncover and overheat. As the core overheated, 
it started to melt and there was a steam cloud interaction 
producing hydrogen. This led to an over-pressurization. The 
primary containment was vented to the secondary containment and 
there was hydrogen gas in that. That led to an explosion in the 
Unit 1 building, and then there was another explosion in the 
Unit 3 building.
    Units 1, 2, and 3 were operating at the time of the 
earthquake and tsunami. The operators started to inject 
seawater to cool the core and through the feed and bleed 
operation, and they are doing that to this day now. They are 
working to restore recirculation cooling. They also have had to 
spray water up onto the spent fuel pools, which are in the 
upper areas, with fire trucks in the beginning. They now have 
an injection boom with a concrete injection pump.
    Thirty years ago at Three Mile Island there was another 
accident that had core degradation also. There were entirely 
different reasons for the accident at Three Mile Island. It was 
the Unit 2 reactor which is in the foreground on this photo. At 
Three Mile Island, it was an operator misunderstanding of the 
reactor system. There was an abnormal shutdown and a valve 
stuck open. The operators thought it was closed and the 
operators thought there was too much water in the reactor, when 
in reality there was not enough. They turned off the emergency 
pumps and this led to the core being overheated. It melted 
approximately a little over half of the core. This is what I 
expect we will find at Fukushima when they eventually get 
inside. Hydrogen gas was generated. The hydrogen gas did have a 
deflagration event, but it was contained primarily within the 
reactor building. There was about a half a million gallons of 
highly radioactive water on the floor of the containment 
building. This would be a sequence of how the core would melt 
and redistribute down toward the bottom of the vessel, which 
again, as reported last night from Japan, is a situation like 
in Unit 1.
    At Three Mile Island, sophisticated clean up systems were 
installed, and the spent fuel pool, which was empty. Special 
refueling tools were built and damaged fuel, the damaged fuel 
was placed in canisters. This was safely completed in about a 
decade, cost about $1 billion and about 3 million gallons of 
highly radioactive water was processed.
    At Fukushima, they are still stabilizing the plant. It is 
not stable yet. They are looking to establish clean areas. They 
are working to mitigate the airborne releases, which are 
unmonitored. They are working to capture the 10-plus million 
gallons of highly radioactive water that is in the plant, and 
gain access. This is just an old picture of the four reactors 
that are severely damaged at Fukushima, another side angle 
where you can see some of the vapors coming off probably the 
spent fuel pools and the reactors, which are located down in 
the lower parts of the buildings. They are taking mitigative 
actions to mitigate the airborne effluents such as spraying 
resins and fixatives on the contaminated soil on the plant 
site. There is also the work to contain the tens of millions of 
gallons of highly radioactive water. They have robotic 
equipment trying to remove the highly radioactive debris from 
the site so they can gain access to the buildings inside. There 
is offsite contamination, but it is not that severe, but 
nonetheless it significant.
    My observations on Fukushima: it is not a public health 
catastrophe, it certainly is an industrial plant catastrophe. 
The tsunami was the critical safety matter. I think Units 1 and 
4 are a complete loss, but the cleanup, I believe, can be done. 
The technology is there. We had it 30 years ago at Three Mile 
Island, and it is much better today than it was back then. The 
Japanese have a strong technological society, and I believe 
they can handle this in the future, but they still have 
challenges. As far as U.S. plants, I believe they have adequate 
safety margins today. The tsunami risk was the main issue for 
safety. That is primarily limited to the northwest coast of the 
United States. We have no operating reactors there on the 
coast, but there are two shut down reactors that have spent 
fuel that is stored there, and that is a risk that probably 
shouldn't be there. But it is a small risk because it is in dry 
storage.
    The United States has done a lot of work in severe response 
improvements over past decades, and I think that is a good 
basis for the United States, but we need to have a systematic, 
methodical risk informed, lessons learned evaluation. The 
industry is doing it, and so is the NRC. We should resist quick 
fix, emotional reactions to this until we get the facts and 
learn what has happened and what is the right course of action.
    The lessons learned from Three Mile Island greatly improved 
U.S. nuclear safety and productivity. The most painful lessons 
are the most teachable lessons, and we had very painful lessons 
at Three Mile Island and we are undergoing one now with 
Fukushima. I believe history will probably look back, if we 
keep on a steady course, that Fukushima will improve our entire 
energy situation, improve safety and performance for the 
future, just like Three Mile Island did 30 years ago.
    Thank you very much.
    [The prepared statement of Mr. Lake Barrett, Principal of 
L. Barrett Consulting, LLC, follows:]
    Prepared Statement of Mr. Lake Barrett, Principal of L. Barrett 
                            Consulting, LLC
    Chairman Broun, Chairman Harris, Ranking Member Edwards, and 
Ranking Member Miller, good morning and I am honored to appear before 
you today to present my views on the events surrounding the incident at 
the Fukushima Daiichi nuclear reactors in Japan, the current status of 
reactor safety in the United States, and how the events at Fukushima 
can inform policies and technology advancement to improve safety and 
risk management for nuclear facilities. I am presenting my views as a 
private person in the context of my experience as the Nuclear 
Regulatory Commission Site Director in charge of recovery and cleanup 
at Three Mile Island.
    On March 11, 2011 a subduction slip fault, where the Pacific plate 
slides under the Japan plate, snapped and released a tremendous amount 
of energy causing a massive 9.0 earthquake that shocked the north east 
coast of Japan. The earthquake caused a massive. tsunami that hit the 
coast approximately one hour after the earthquake. This was reported as 
the largest earthquake to hit Japan in over the last 1,000 years. The 
earthquake and tsunami caused immense destruction throughout northern 
Japan destroying entire towns and killing over 20,000 persons with 
early damage estimates of over $300 billion.
    The massive earthquake took down the northern Japan power grid 
causing the operating major power plants in the region to automatically 
shutdown. The Fukushima Daiichi power reactor complex was impacted by 
the earthquake and the three operating reactors there safely shutdown. 
Although the earthquake dynamic loading was reportedly slightly above 
the seismic design basis of the facility, there was no reported damage 
to safety systems and the shutdown appeared to function normally 
despite the massive earthquake. The emergency diesels started as 
designed and there was no reported significant structural damage to 
safety systems.
    Approximately one hour after the earthquake, a massive 15 meter 
high tsunami hit the Fukushima Daiichi site and overwhelmed the tsunami 
protections that had a reportedly nominal design basis of 5.7 meters 
with the major facility buildings located approximately 10 meters high. 
This ultra high ``mega'' tsunami flooded all the emergency diesels, 
swept away their fuel supplies, and destroyed much of the electrical 
switch gear. This complete loss of AC power and destruction of 
electrical components resulted in an extended ``station blackout'' 
situation.
    With the loss of all AC electric power, reactor Units 1, 2, and 3, 
which had automatically shutdown, were then cooled by their DC battery 
controlled backup cooling systems: an isolation condenser for the older 
Unit 1 reactor and the steam turbine driven Reactor Core Isolation 
Cooling system pumps at the newer larger Units 2 and 3. After 
approximately 8 hours these backup systems apparently failed and thus 
the operators were unable to remove the decay heat from the reactor 
cores. The operators and government officials declared a site emergency 
and initiated a phased evacuation and sheltering order in areas 
surrounding the site with a 30 KM radius.
    With the loss of cooling, the reactor primary coolant system water 
in the reactor core started to boil away and increase the primary 
coolant system pressure. This led to either an automatic opening of the 
system overpressure protection relief valves or manual opening of the 
valves to relieve primary system pressure by releasing steam to the 
primary containment suppression pool in the basement of the reactor 
building, The continued loss of coolant lowered the reactor vessel 
water level such that the core became uncovered, but was bathed in 
superheated steam, With this loss of cooling water, the fuel cladding 
temperatures increased significantly until the zirconium alloy rods 
that encase the uranium fuel pellets over heated, became over 
pressurized, and likely burst As the temperatures further increased 
there was a chemical reaction between the zirconium alloy cladding 
material and the superheated steam, The chemical reaction was an 
oxidation of the zirconium metal by the oxygen in the steam which 
produced additional heat and also hydrogen gas, This release of 
additional gas and energy into the primary coolant system led to 
further over pressurization of the primary coolant system which in turn 
led to further release of steam, which now contained hydrogen and noble 
gas fission products, into the suppression pool and primary 
containment.
    Since there were no cooling systems available to cool the primary 
containment system suppression pool, the water temperature of the 
suppression pool began to rise past the boiling point and the primary 
containment system pressure began to rise, At some point, likely around 
5 atmospheres of pressure, the primary containment system was in danger 
of over pressurizing toward a possible structural failure, Although I 
do not know exactly what happened at this point, it appears that the 
operators manually released pressure from the primary containment to 
prevent a failure of the primary containment system, They were likely 
trying to vent the steam, hydrogen, and fission product gas mixture 
through filters and up the 100 meter ventilation stack, However, for 
some unknown reasons, there may have been leaks in the system or they 
may have intentionally vented the gas mixture into the reactor building 
(which serves as a secondary containment) trying to minimize releases 
of radioactive materials to the environment Regardless of the operator 
actions, the hydrogen gas apparently mixed with oxygen rich natural air 
in the reactor building resulting in an explosive gas mixture within 
the reactor building,
    Some unknown ignition source ignited the explosive gas mixture 
resulting in the destruction of the roof and upper sides of the Unit 1 
and Unit 3 reactor buildings, As expected, the hot gases rose toward 
the top of the reactor building doing the most damage to the upper 
areas, The primary containment system boundary in the lower levels of 
these reactor buildings seemed to not be seriously compromised and 
seemed to maintain their ability to contain and scrub fission products 
from hot radioactive effluents venting from the primary coolant system,
    Although no details are yet available on specific mitigation 
actions that the operators were taking to cool the reactor cores and 
mitigate the release of radioactive releases, there was one heroic 
effort apparently made to prevent a hydrogen explosion in Unit 2 
reactor building, The operators went into the Unit 2 reactor building 
and removed a side wall panel to allow hydrogen gas to naturally 
diffuse into the environment before it could build up to explosive 
levels and ignite, There was however, a reported explosion in the lower 
regions of the Unit 2 reactor building that likely damaged the primary 
containment; however information as to the situation there is not yet 
available,
    Portable diesel power generators and fire engine pumps were brought 
into the site as soon as possible, however, the huge extent of 
earthquake and tsunami damage to the local area was a major delaying 
factor.
    Eventually the operators were able to connect the fire truck pumps 
to directly inject seawater into the reactor cores of Units 1, 2 and 3 
to start removing decay heat from the cores, thus likely preventing 
further core overheating and damage, Unfortunately, considerable damage 
was already done to the cores, but with the seawater and later 
freshwater injection to the cores, the situation seems to have 
stabilized.
    At the time of the earthquake and tsunami the Unit 4 reactor was 
shut down for maintenance with its reactor core removed from the 
reactor vessel and placed in its spent fuel pool. Several days after 
the earthquake and tsunami there was one or more major explosions in 
the Unit 4 reactor building. At this point, I do not know the source of 
explosion energy. At an early time, it was theorized that the Unit 4 
spent fuel pool may have overheated, but recent water samples from the 
Unit 4 pool do not indicate major fuel damage. So at this point, more 
information is necessary to determine what happened in Unit 4.
    Although information is very sketchy, it seems based on water 
samples taken, there has been damage to spent fuel that is stored in 
the Units 2 and 3 spent fuel pools. Information as to what happened in 
these pools is still unavailable, so it is impossible to determine the 
significance at this time, but it certainly appears that something of 
significance occurred. Once information becomes available, a careful 
analysis should determine what happened and what are the appropriate 
lessons learned regarding spent fuel pool storage safety.
    The U.S. Three Mile Island Unit 2 (TMI) accident back on the 
morning of March 28,1979 resulted in similar reactor core overheating 
and core damage similar to what has now happened to the cores in the 
Fukushima Units 1,2 and 3. The TMI accident led to localized core 
melting, hydrogen generation and release of radioactive materials from 
the reactor core, but for entirely different reasons. Although the 
physical core degradation mechanisms were similar for TMI and 
Fukushima, I expect that the primary safety lessons learned will be 
different because of different circumstances involved.
    At Three Mile Island there was no natural catastrophe as at 
Fukushima. It was a major man-machine interface problem when, during an 
abnormal reactor shutdown, the reactor operators were not aware of a 
stuck open pressurizer relief valve, which had a faulty valve position 
indicator, resulting in the operators believing that there was too much 
water in the reactor when actually there was not enough. The operators 
stopped automatic water injection when they should not have done so. 
The lack of water injection led to the core becoming uncovered and 
grossly overheating. As in the Fukushima cores, the fuel cladding 
burst, chemically reacted with superheated steam, released hydrogen gas 
and melted approximately 50% of the reactor core. Again, as at 
Fukushima, the TMI primary coolant system over pressurized and 
radioactive steam, hydrogen gas, and radioactive fission products were 
released into the TMI reactor containment building. The hydrogen gas 
mixed with the oxygen in the air inside the TMI containment building 
and ignited in a deflagration burn wave pressure spike that was fully 
contained within the primary containment. At TMI there was no breach of 
the primary containment system.
    Once the TMI operators realized what the reactor situation was, 
cooling water was immediately added and a sustainable core cooling 
function was restored later on the first day by operating the large 
main coolant pumps. Decay heat was then removed through the steam 
generators until cold shutdown was achieved.
    The operation of the main coolant pumps required some highly 
contaminated primary coolant to be circulated into the Auxiliary 
Building which led to some radioactive gases being released into the 
Auxiliary Building ventilation system. Virtually all significant 
releases were contained within the reactor containment building.
    There were approximately two and one half million gallons of highly 
radioactive water generated during the accident and recovery that 
needed to be cleaned up. All the accident related water was contained 
on site and special water processing systems were built to remove the 
radioactive fission products, primarily Cesium and Strontium. 
Eventually the processed accident water was safely discharged by 
evaporation.
    The stabilization and cleanup of TMI took approximately a decade 
and cost approximately one billion dollars. Building accesses had to be 
established, ventilation system improvements made, high radiation areas 
mitigated, radioactive water removed, buildings decontaminated, 
building infrastructures (e.g. cranes) restored, access to the damaged 
reactor cores accomplished, special defueling systems deployed, 
packaging of damaged fuel and other highly radioactive waste products 
completed, temporary onsite storage facilities constructed, and 
eventual offsite shipment of the damaged fuel and radioactive wastes 
for lessons learned research and development accomplished. This was 
safely achieved with virtually no offsite environmental impacts.
    There were no radioactive injuries or adverse health effects from 
the Three Mile Island accident and cleanup. Inadequate operator 
response to deficient control room instrumentation proved to be the 
root cause of the accident. The primary lessons learned from TMI was 
that a much better integration of the operator's understanding of the 
reactor systems was needed during off normal events. Major industry 
wide improvements were instituted which included creation of the 
Institute of Nuclear Power of Operations (lNPO) and risk informed 
regulatory processes. Thus the TMI lessons learned responses led to 
improved U.S. nuclear safety and improved reactor productivity.
    It should be noted that the sister Three Mile Island Unit 1 
reactor, which has a similar design to the damaged Unit 2, was 
restarted after a thorough lessons learned review and continues to 
operate safely today with one of the highest capacity factors in the 
country.
    I believe Fukushima is nearing the end of their initial 
stabilization period and will hopefully soon be entering their 
recovery/cleanup and lessons learned phases. They are working to 
establish closed circuit core cooling for Units 1, 2 & 3 so that they 
do not continue to create large quantities of highly radioactive water 
containing fission products and continuing radioactive gas venting. In 
addition, they are working to mitigate the releases of contaminated 
water that has accumulated in all the reactor and turbine buildings by 
installing new water storage tanks and processing systems. Airborne 
releases are being mitigated by the installation of air filtration 
systems and spraying of resin fixatives to onsite areas that were 
highly contaminated by earlier airborne releases. Even though the 
radioactive effluent mitigation challenges are great, I expect they 
should be able to establish sufficient capability to minimize any 
future significant radioactive releases from the site.
    In summary, it is my view that the public health consequences of 
the Fukushima accident should be infinitesimal when compared to the 
impact of the earthquake and tsunami. From a radiological perspective, 
this should be inconsequential from a national public health 
perspective. There are some areas to the northwest where Cesium and 
likely Strontium contamination has deposited and significant 
remediation challenges will have to be addressed.
    From an overall reactor safety perspective, I expect that there 
will be much learned from Fukushima that will confirm present U.S. 
safety margins and should also provide information to further improve 
reactor safety in the coming years. The fundamental U.S. reactor safety 
level that exists today is likely to be demonstrated as adequate 
because there is a limited tsunami risk to most U.S. reactor 
facilities. The only significant tsunami risk area in the U.S. is in 
the Northwest Pacific coast where there are no exposed operating 
reactors, but there are two shutdown reactor sites which have stranded 
spent nuclear fuel in dry storage casks. In my view, I believe that all 
stranded spent fuel at shutdown reactor sites should be removed to 
completely eliminate `all radiological risks at these decommissioned 
sites.
    There are two other southern Pacific coast reactors, Diablo Canyon 
and San Onofre; however, I expect that further reviews will confirm 
there are adequate tsunami safeguards already in place at these sites 
that should demonstrate adequate facility safety.
    In the U.S. a lot of attention has already been placed on severe 
accident mitigation over the last 25 years and especially since 
September 11, 2001. Many safety improvements have already been made 
which I believe will demonstrate that U.S. reactors are well prepared 
to withstand severe accidents regardless of the initiating event. So 
although a systematic methodical risk informed Fukushima lessons 
learned evaluation should be performed and enhancing improvements 
should be made, I expect that fundamental existing severe accident 
safety margins will basically be confirmed.
    I strongly recommend that the U.S. lessons learned process be 
methodical, deliberate, risk informed and primarily led by private 
industry. The independent Nuclear Regulatory Commission will do their 
own safety reviews into the adequacy of their regulations with their 
own lessons learned function. NRC and DOE nuclear research programs 
should be adjusted as more is learned.
    The NRC should resist political or emotional calls for quick 
actions in one area or another until a thoughtful, fully informed 
lessons learned analysis is completed based on facts and public health 
and safety significance. Of course, if some immediate safety issue is 
discovered requiring immediate action, the NRC has all the necessary 
authority to act as necessary, but only when a clear significant safety 
situation exists.
    Three Mile Island lessons learned programs strengthened U.S. 
nuclear energy in many different ways. The most painful lessons are 
often the most teachable. Although we are just beginning to understand 
the Fukushima lessons, I firmly believe that they will further 
strengthen U.S. nuclear energy programs and other nuclear energy 
programs throughout the world.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Broun. Thank you very much, Mr. Barrett. We have 
been notified that we will be taking votes shortly, but what we 
are going to do is we are going to hear from the last two 
witnesses and then recess. We are going to go vote and we are 
going to come back for questions.
    So I now recognize our next witness, Dr. John Boice, 
Scientific Director of the International Epidemiology 
Institute.

STATEMENT OF DR. JOHN BOICE, SCIENTIFIC DIRECTOR, INTERNATIONAL 
                     EPIDEMIOLOGY INSTITUTE

    Dr. Boice. Thank you, Mr. Chairman, ranking Members, and 
Members of the Subcommittee. I am a radiation epidemiologist, 
and I have spent my entire career studying populations exposed 
to radiation, from Chernobyl cleanup workers to populations 
living near nuclear power plants. I was in Hiroshima just a few 
days before the accident as a member of the Science Council of 
the Radiation Effects Research Foundation, reviewing the study 
of atomic bomb survivors.
    Fukushima is not like Chernobyl. The Chernobyl accident 
resulted in massive radiation exposures. There was no 
containment vessel, and a fire burned for 10 days, spewing 
radioactive material into the environment. The first responders 
and the fire fighters received so much radiation that 28 died 
of acute radiation sickness within a few months. Radioactive 
iodines were deposited on large areas, and were ingested by 
grass-eating cows who gave milk that was drunk by children, and 
an epidemic of thyroid cancer resulted.
    In contrast, Fukushima appears to have resulted in 
substantially lower worker and public exposures. The Japanese 
authorities raised the annual limit of worker exposure from 2 
to 25 rem, but only 21 workers received more than 10 rem. These 
levels are far below the hundreds of rem needed to cause acute 
radiation sickness, but they are sufficient to increase the 
lifetime risk of developing cancer over their lifetimes by 
about 1 percent.
    Exposure to the public was minimal in large part because 
the prevailing winds blew much of the radioactive releases 
toward the ocean, and because of the actions taken by the 
Japanese authorities. They evacuated people living within 20 
kilometers of the Fukushima plant, and recommended that those 
within 30 kilometers stay indoors to minimize exposure. They 
monitored the food and water supplies, and banned the shipment 
of foodstuffs and milk when the radiation levels exceeded 
allowable standards. These protective measurements, including 
the distribution of stable iodine pills or syrup for children 
minimized public doses, and subsequently, there was unlikely to 
be any or minimal health consequences. This is borne out in a 
survey of over 1,000 children who had their thyroids measured 
for possible uptakes of radioactive iodine. Not one child had a 
measurement above normal. Nonetheless, some of the prevailing 
winds did blow toward populated areas and these areas will be a 
concern for remediation before allowing public access to 
return.
    Fukushima is 5,000 miles away from the United States, and 
radiation is substantially diluted after traveling such a long 
distance. The detection of trace amounts of radiation speaks 
more about the sensitivity of our detectors than to the 
possible consequences to public health. They pose no threat to 
human health. They represent at most only a tiny fraction of 
what we receive each day from daily sources of radiation.
    The minute levels of radioactive iodine detected in milk in 
Washington State were 5,000 times below the levels set by the 
FDA to trigger concern. An infant would have to drink hundreds 
of gallons of milk to receive a radiation dose equivalent to a 
day's worth of natural background radiation exposure. These 
trace levels are not a public health concern, and potassium 
iodide tablets should not be taken as a preventive measure to 
block the thyroid's uptake of such tiny levels. There are 
potential adverse effects from taking these tablets, and these 
risks have to be a balance against a non-existent benefit.
    We live in a radioactive world. If I could have that first 
slide?
    [Slide]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    In comparisons might help place the radiation levels from 
Fukushima in context. Practically all the food we eat contains 
small amounts of naturally occurring radioactive elements. We 
breathe radioactive radon. Bricks and granite contain 
radioactive materials that emit gamma radiation. The Capitol 
building has some of the highest radiation levels in the United 
States. Water contains small amounts of radioactive radium, 
thorium, and uranium.
    These examples are not to minimize the health consequences 
of high and moderate exposures, but just to place in 
perspective the tiny amounts from Fukushima which pose no 
public health problems to the United States.
    The Fukushima accident, however, highlights the need for 
continued health research to fill important gaps in knowledge. 
We know much about the effects of high levels of radiation when 
received briefly, as was the case for the atomic bomb survivors 
whose exposure was in less than a second. However, the level of 
risk following exposures experienced gradually, over long 
periods of time, are uncertain and remains the major unanswered 
question in radiation epidemiology and risk assessment.
    One untapped opportunity that should not be wasted is to 
study our own U.S. radiation workers and veterans. The Low Dose 
Radiation Program within the Department of Energy had the 
foresight to provide seed money to evaluate the feasibility of 
studying one million Americans, and this comprehensive work 
should continue. The studied populations include Department of 
Energy and Manhattan Project workers, atomic veterans who 
participated in nuclear weapons tests, nuclear utility workers, 
and others.
    Thank you very much for this opportunity to appear before 
you.
    [The prepared statement of Dr. Boice follows:]
      Prepared Statement of Dr. John Boice, Scientific Director, 
                  International Epidemiology Institute
    Good morning, Mr. Chairmen, ranking Members, and Members of the 
Subcommittee. I am pleased to discuss the possible health implications 
of radiation from the Fukushima Daiichi nuclear power plant accident in 
Japan. Just a few days before the natural disasters struck on March 11, 
2011, I was in Hiroshima, Japan as a member of the Radiation Effects 
Research Foundation's Science Council, reviewing the study of atomic 
bomb survivors. I would like to begin by expressing my heartfelt 
sympathy for the families of the tens of thousands who lost their lives 
as a result of the tsunami and earthquake and for the hundreds of 
thousands who have been displaced from their homes and livelihoods. The 
health consequences associated with the radiation exposures emanating 
from the Fukushima Daiichi plant pale in comparison.
    As background, I am a radiation epidemiologist and Professor in the 
Department of Medicine at Vanderbilt University and Scientific Director 
of the International Epidemiology Institute. I have spent my career 
studying human populations exposed to radiation, including Chernobyl 
clean-up workers, patients receiving diagnostic and therapeutic 
radiation, underground miners exposed to radon, nuclear energy workers, 
atomic veterans, persons living in areas of high background radiation 
and U.S. populations living near nuclear power plants and other 
facilities. I am also a commissioner of the International Commission on 
Radiological Protection, an emeritus member of the National Council on 
Radiation Protection and Measurements, a U.S. delegate to the United 
Nations Scientific Committee on the Effects of Atomic Radiation, and a 
member of the Congressionally-mandated Veterans Advisory Board on Dose 
Reconstruction.
    My remarks will cover five areas:


    <bullet>  Fukushima is not Chernobyl.

    <bullet>  The health consequences for Japanese workers and public 
appear to be minor.

    <bullet>  The health consequences for United States citizens are 
negligible to nonexistent.

    <bullet>  We live in a radioactive world.

    <bullet>  There is a pressing need to learn more about the health 
consequences of radiation in humans when exposures are spread over time 
at low levels and not received briefly at high doses such as in atomic 
bomb survivors.

    Fukushima is not Chernobyl [Slide 1]

    The Chernobyl accident on April 26, 1986, resulted in massive 
radiation exposures, both to the emergency workers putting out the 
ensuing fire and to the environment. There was no containment vessel 
and after the explosion a fire burned for ten days and spewed 
radioactive particles continuously into the environment. The emergency 
workers, the first responders and fire fighters, received so much 
radiation that 28 of them died of acute radiation sickness within a few 
months of exposure. Those who survived developed cataracts at a high 
rate and several subsequently died of myelodysplastic disorders. 
Radioactive iodines were deposited on large areas throughout the 
Ukraine, Belarus and Russian Federation and were ingested by cows who 
gave milk that was drunk by children, and an epidemic of thyroid cancer 
ensued beginning about five years after the accident. Over 520,000 
recovery workers were sent to clean up the environment and build the 
so-called sarcophagus to contain the damaged nuclear reactor. To date 
there is little conclusive evidence for adverse health effects 
associated with radiation received during these clean-up operations. 
There have, however, been indications of severe psychological stress 
and increased rates of suicide.
    In contrast, while the radiation releases from Fukushima [Slide 2] 
are estimated to be up to 10% of that from Chernobyl, there appears to 
be substantially less worker and public exposure. The Japanese 
authorities relaxed the allowable annual limit of worker exposure from 
2 to 25 rem for this emergency situation, but only about 21 workers 
received more than 10 rem and only two workers received between 20 and 
25 rem. These levels are far below the hundreds of rem needed to cause 
acute radiation sickness. Those workers who experienced levels over 10 
rem to their entire body, however, have an increased lifetime risk of 
developing cancer of about 1-2% over the expected normal lifetime rate 
of about 42%. There were reports of high radiation fields in the 
vicinity of the damaged reactors and spent fuel storage ponds and with 
the contaminated water, but apparently the Japanese authorities rotated 
workers in such a way that cumulative exposures to individuals were 
minimized. Three workers received beta particle exposures to their legs 
from an estimated 200-300 rem to the skin, but the health consequences 
of these localized exposures were minimal and resulted in only a 
reddening of the skin.
    Exposure to the public was minimal in large part because of the 
prevailing winds and the quick action taken by the Japanese 
authorities. The prevailing winds were generally to the east and over 
the ocean and thus did not result in meaningful radiation exposures to 
the Japanese public. In contrast to the circumstances around Chernobyl 
where the authorities failed to alert or evacuate the surrounding 
populations until several days had passed, the Japanese government 
quickly evacuated persons living within 20 km of the Fukushima Daiichi 
plant and recommended that those living within 30 km stay indoors to 
minimize any possible exposure to radioactive releases. In addition, 
they immediately monitored the food and water supplies and banned the 
shipment of foodstuffs and milk where the radiation levels exceeded 
allowable standards.
    These protective action measures, including the distribution of 
stable iodine pills (or syrup for children), minimized public doses and 
suggest that there will be minimal health consequences associated with 
any radiation exposures to the Japanese public. This is borne out in 
one survey of over 1,000 children who had their thyroids measured for 
possible uptakes of radioactive iodine. Not one child had a measurement 
above detectable limits. This is in contrast to children living near 
Chernobyl for whom large numbers had extremely high levels of 
radioactive iodine detected in their thyroids from drinking 
contaminated milk shortly after the accident.
    Nonetheless, some of the prevailing winds did blow toward populated 
areas shortly after the accident and during the hydrogen explosions, 
and to the north-west in particular. Rain, snow and hail deposited 
radioactive particles in certain regions, including some beyond 20 km, 
and these areas will be a concern for remediation before allowing 
public access or return. The Japanese authorities are considering 
regular medical examinations for workers and inhabitants who received 
more than 10 rem. To reduce anxiety, they are considering medical 
check-ups for those who may have received between 2 to 10 rem. They are 
also grappling with important issues as to when and how to allow 
evacuated inhabitants to return to their homes. Childhood exposures are 
of particular concern and topsoil is already being removed from some 
school playgrounds.
    Thus, while Fukushima is clearly a major reactor accident, the 
potential health consequences associated with radiation exposures in 
terms of loss of life and future cancer risk are small, particularly in 
contrast with those resulting from the Chernobyl accident some 25 years 
ago.
    For completeness, the 1979 reactor accident at Three Mile Island 
did not release appreciable amounts of radioactive substances into the 
environment, and public and even worker exposures were minimal. The 
average dose to people in the area was only about 1 millirem, or about 
what would be received in three days from sources of natural background 
radiation to the surrounding population.

    The health consequences for United States citizens are negligible 
to nonexistent. [Slide 2]

    Fukushima is 5,000 miles away from the United States and the 
radiation that has been detected was substantially diluted after 
traveling such a long distance. The detection of trace amounts of 
radiation speaks more about the potential health consequences from the 
radiation itself. In addition to EPA's RadNet system that monitors 
water, milk and the atmosphere, the Department of Energy has radiation 
monitoring equipment that can detect minute quantities of radioactive 
particles from the other side of the world as part of the Comprehensive 
Nuclear Test Ban Treaty. The tiny amounts of detected radioactive 
materials from Fukushima pose no threat to human health. They 
represent, at most, only a tiny fraction of what we receive each day 
from natural sources, such as the sun, the food we eat, the air we 
breathe and the houses we live in.
    It is impressive that radiation monitors can detect levels of 
radioactive iodine-131 as low as 0.03 Bq/L (0.8 pCi/L) in milk in 
Washington State; this is the decay of one radioactive atom per second 
in about 33 gallons of milk. Such a level is 5,000 of times below the 
Derived Intervention Level set by the Food and Drug Administration to 
trigger concern over radionuclides in food. An infant would have to 
drink hundreds of gallons of milk to receive a radiation dose 
equivalent to a day's worth of natural background radiation exposure. 
Such tiny levels of radiation are inconsequential compared with the 
levels we experience in daily life.
    Interestingly, the radiation monitoring stations in Washington 
State had to detect radionuclides other than iodine-131 in order to 
distinguish radiation from Fukushima from that at any local hospital in 
the area. Most nuclear medicine departments use radioactive iodine for 
imaging the thyroid and to treat thyroid diseases, and patients are 
discharged shortly after intake and remain radioactive for several 
months, releasing small but detectable levels of radioactive iodine 
into the environment.
    The trivial levels of radiation from Japan, while detectable, 
should not be of a concern and Americans should not take stable iodine 
(potassium iodide pills, KI) as a preventive measure to block the 
thyroid's uptake of radioactive iodine. There are potential adverse 
health effects from taking KI pills and these risks have to be balanced 
against a nonexistent benefit.

    We live in a radioactive world. [Slide 3]

    To place the radiation levels from Fukushima in brief perspective, 
it is important to recognize that we live in a radioactive world. A 
banana, for example, has 10 Bq of activity, that is, 10 radioactive 
potassium atoms decay every second. All the foodstuffs we eat that 
contain potassium also contain a small amount of radioactive potassium, 
a primordial element with a billion year half-life. There are no 
concerns and no health consequences from such exposures.
    We breathe radioactive radon which contributes over the year to 
about 210 millirem of natural background radiation. Bricks and granite 
contain radioactive materials that result in radiation exposures to the 
public (20 millirem). The Capitol Building was constructed with granite 
and is frequently cited as having some of the highest radiation levels 
in all of the United States, about 85 millirem per year. Water contains 
small amounts of radioactive radium, thorium and uranium, all within 
allowable limits.
    Not only do we live in a radioactive world, our bodies are 
radioactive (30 millirem per year). Each second over 7,000 radioactive 
atoms in our bodies decay and can irradiate those sitting next to us. 
The atoms are largely radioactive potassium in our muscles and carbon-
14 in our tissues. The amount of radiation we receive each year from 
medical sources (300 millirem), such as CT and medical imaging, equals 
the amount received from natural sources (300 millirem). International 
travel increases our exposure to cosmic rays and space radiation. A 
roundtrip from Dulles to Tokyo would result in 20 millirem. Living in 
Denver for a year results in 450 millirem of radiation dose, or 35% 
more than the U.S. average of 310 millirem from natural sources. About 
2.5 million Americans (0.8% of the population) receive more than 2,000 
millirem per year from natural sources.
    These examples are not to minimize the health consequences of high-
level exposures which are clearly demonstrable in human populations and 
include acute radiation sickness at very high doses in excess of 200 
rem and an increase in cancer at moderate doses above about 10 rem 
(10,000 millirem). The examples do indicate, however, that we live in a 
world of exposures to the U.S. population from Fukushima are tiny and 
thousands of times below U.S. standards or guidelines where remedial 
action would be triggered.

    What research is needed? [Slide 4]

    4Although we know much about the health effects of high levels of 
radiation when received briefly, as was the case for atomic bomb 
survivors, the risk following exposures experienced gradually over time 
is uncertain and remains the major unanswered question in radiation 
epidemiology.
    One untapped opportunity is to study our own U.S. radiation workers 
and veterans. The Low Dose Radiation Program within the Department of 
Energy had the foresight to initiate pilot investigations of over one 
million such workers and this comprehensive work should continue. 
Cooperating agencies include the National Cancer Institute, the 
Department of Defense, the Department of Veterans Affairs, the Nuclear 
Regulatory Commission and others. The study populations include early 
DOE and Manhattan Project workers, atomic veterans who participated in 
nuclear weapons testing in the 1940s and 1950s, nuclear utility 
workers, medical workers and others involved in the development of 
radiation technologies, as well as nuclear navy personnel.
    Such a large study in the United States is critically important to 
understand scientifically the health consequences of low-dose radiation 
experienced over time and is directly relevant to the setting of 
protection standards for workers and the public; the assessment of 
possible risks from enhanced medical technologies such as CT and 
nuclear medicine imaging; the expansion of nuclear power; the handling 
of nuclear waste; the compensation of workers with prior exposures to 
radiation; and even the possible consequences of the radiation released 
from reactor accidents such as at Fukushima. To date, no direct study 
of these issues has been exposures in 1945 have to be relied upon.

    Summary [Slide 5]
    Fortunately, the health consequences from the radiation releases 
from the Fukushima Daiichi power plant appear to be minimal and are of 
little importance with regard to the U.S. public. The Japanese 
authorities acted quickly to evacuate over'200,000 inhabitants living 
near the damaged reactors; they monitored food and water and took rapid 
action to ban foodstuffs with increased radiation levels; they 
distributed stable iodine pills and syrup; and they made measurements 
on over 175,000 persons. The lasting effects upon the Japanese 
population will most likely be psychological with increased occurrence 
of stress-related mental disorders and depression associated not 
necessarily with the concern about reactor radiation, but with the 
horrific loss of life and disruption caused by the tsunami and 
earthquake. There is a need for better public understanding and better 
communications on the health effects of radiation exposures. Finally, 
there is now the opportunity in the United States to learn directly 
about low-dose, long-term radiation health effects by studying our 
workers and veterans.
    Thank you for this opportunity to testify. I welcome any questions 
that you may have.

    Relevant References

    Boice JD Jr. Lauriston S. Taylor lecture: radiation epidemiology--
the golden age and future challenges. Health Physics 100(1):59-76, 
2011.

    Christodouleas JP, Forrest RD, Ainsley CG, Tochner Z, Hahn SM, 
Glatstein E. Short-Term and Long-Term Health Risks of Nuclear-Power-
Plant Accidents. New England Journal of Medicine, April 20, 2011.

    Idaho National Laboratory. Oversight Program: Guide to Radiation 
Doses and Limits. [http://www.deq.idaho.gov/inl-oversightlradiation/
radiation-guide.cfm]

    International Atomic Energy Agency. Fukushima Nuclear Accident 
Update Log [http://www.iaea.org/newscenter/news/tsunamiupdate01.html]

    National Council on Radiation Protection and Measurements, NCRP 
Report No. 160, Ionizing Radiation Exposure of the Population of the 
United States, March 2009.

    Report of the President's Commission on the Accident at Three Mile 
Island, Washington, D.C. (The Kemeny Commission Report), October 1979.

    Smith J. A long shadow over Fukushima. Nature, April 5, 2011.

    UNSCEAR. United Nations Scientific Committee on the Effects of 
Atomic Radiation. Sources and Effects of Ionizing Radiation, UNSCEAR 
2008 Report to the General Assembly, with Scientific Annexes, Volume 
II, Annex D, health Effects due to Radiation from the Chernobyl 
Accident (United Nations Publications, New York), 2011.

    U.S. Army Corps of Engineers. [http://www.lrb.usace.army.mil/
fusrap/docs/fusrap-fs-uranium-2008-09.pdf]

    Wakeford R. And now, Fukushima (editorial). Journal of Radiological 
Protection (in press).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Dr. Harris. Thank you very much, Dr. Boice, and now I 
recognize our final witness, Dr. Dave Lochbaum, the Director of 
Nuclear Safety Project for the Union of Concerned Scientists.
    Mr. Lochbaum?

   STATEMENT OF MR. DAVID LOCHBAUM, DIRECTOR, NUCLEAR SAFETY 
             PROJECT, UNION OF CONCERNED SCIENTISTS

    Mr. Lochbaum. Good morning, Mr. Chairman, Ranking Member 
Edwards, and other Members of the Subcommittees. On behalf of 
the Union of Concerned Scientists, I appreciate this 
opportunity to share our perspectives. My written testimony 
describes lessons already evident from the Fukushima disaster 
that are applicable to ensuring safer nuclear power plants in 
the United States. This morning, I would like to focus on three 
of those lessons.
    The first lesson involves severe accident management 
guidance. In NRC terminology, a severe accident involves some 
fuel damage. The NRC and the nuclear industry representatives 
have claimed that the severe accident management guidelines 
developed after the Three Mile Island meltdown would protect us 
from the problems faced at Fukushima. They have not been 
telling the whole story. As broadcaster Paul Harvey used to 
say, here is the rest of the story.
    The entry for severe accident management guidelines in NRC 
manual chapter 0308 states ``The staff concluded that regular 
inspection was not appropriate because the guidelines are 
voluntary and have no regulatory basis.'' The NRC never checks 
the guidelines to determine if they might actually work under 
severe accident conditions. From March 2009 until March 2010, I 
worked for the NRC as an instructor at their technical training 
center. My duties included teaching the severe accident 
management guidelines to NRC employees. I and the other 
instructors emphasized that NRC inspectors were not authorized 
to evaluate the adequacy of the guidelines. Plant owners are 
required to have the guidelines, while NRC inspectors are 
required not to assess them.
    If the NRC continues to rely on these guidelines to protect 
public health, it must evaluate their effectiveness. It would 
be too late and too costly to find out after a nuclear plant 
disaster that the guidelines were missing a few key steps or 
contained a handful of missteps.
    The second lesson involves upgraded guidance for spent fuel 
pool events. As I mentioned, the NRC and the nuclear industry 
upgraded the procedures used by the operators during reactor 
core accidents. The upgraded procedures provide the operators 
with a full array of options available to deal with the reactor 
core accident, not just those options relying on emergency 
equipment. In addition, the upgraded procedures would help the 
operators handle problems like unavailable or misleading 
instrumentation readings. No such procedures and associated 
training are available to help the operators deal with spent 
fuel pool events. The NRC must require robust procedures for 
spent fuel pool problems comparable to those available for 
reactor core problems so that operators can prevent fuel damage 
from occurring, or mitigate its consequences when those efforts 
fail.
    The last lesson involves additional regulatory requirements 
for defueled reactors. When the earthquake and tsunami happened 
in Japan, the reactor core in Fukushima Unit 4 was fully 
offloaded into the spent fuel pool. This configuration is 
termed a defueled condition. There is a gaping hole in the 
regulatory safety net when reactors are defueled. When the NRC 
issues operating licenses for reactors, appendix A to that 
license contains the technical specifications. These 
specifications establish ``the lowest functional capability of 
performance levels of equipment required for safe operation of 
the facility,'' along with the scope and frequency of testing 
required to demonstrate that capability.
    The operational condition of the reactor determines which 
requirements are applicable when. When the entire reactor core 
has been offloaded into the spent fuel pool, very few 
requirements still apply. For example, the containment 
structure surrounding the spent fuel pool is no longer required 
to be available to be intact. This containment significantly 
reduces the amount of radioactivity reaching the environment 
from damaged fuel in the spent fuel pool, but only when it is 
intact. Likewise, the specifications do not require normal 
power, backup power, or even battery power to be available.
    When the fuel is in the reactor core, the specifications 
mandate safety measures to protect Americans from that hazard, 
but when that hazard is entirely relocated to the spent fuel 
pool, nearly all those safety measures can be removed. The NRC 
must fix this deficiency as soon as possible to provide 
adequate protection of public health when reactor cores are 
defueled. In the interim, the NRC should seriously consider 
banning full core reactor offloads into the spent fuel pool.
    In conclusion, the measures we have recommended will lessen 
the chance of a disaster at a U.S. nuclear power plant, but if 
it happens anyway, the Federal Government would be able to look 
Americans in the eye and say we took every reasonable measure 
to protect you.
    Thank you.
    [The prepared statement of Mr. Lochbaum follows:]
  Prepared Statement of Mr. David Lochbaum, Director, Nuclear Safety 
                 Project, Union of Concerned Scientists

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

[GRAPHIC] [TIFF OMITTED] 66222.002

[GRAPHIC] [TIFF OMITTED] 66222.003

[GRAPHIC] [TIFF OMITTED] 66222.004

[GRAPHIC] [TIFF OMITTED] 66222.005

[GRAPHIC] [TIFF OMITTED] 66222.006

[GRAPHIC] [TIFF OMITTED] 66222.007

[GRAPHIC] [TIFF OMITTED] 66222.008

[GRAPHIC] [TIFF OMITTED] 66222.009

[GRAPHIC] [TIFF OMITTED] 66222.010

[GRAPHIC] [TIFF OMITTED] 66222.011

[GRAPHIC] [TIFF OMITTED] 66222.012

[GRAPHIC] [TIFF OMITTED] 66222.013

[GRAPHIC] [TIFF OMITTED] 66222.014

[GRAPHIC] [TIFF OMITTED] 66222.015

[GRAPHIC] [TIFF OMITTED] 66222.016

[GRAPHIC] [TIFF OMITTED] 66222.017

[GRAPHIC] [TIFF OMITTED] 66222.018

[GRAPHIC] [TIFF OMITTED] 66222.019

[GRAPHIC] [TIFF OMITTED] 66222.020

[GRAPHIC] [TIFF OMITTED] 66222.021

[GRAPHIC] [TIFF OMITTED] 66222.022

[GRAPHIC] [TIFF OMITTED] 66222.023

[GRAPHIC] [TIFF OMITTED] 66222.024

[GRAPHIC] [TIFF OMITTED] 66222.025

[GRAPHIC] [TIFF OMITTED] 66222.026

[GRAPHIC] [TIFF OMITTED] 66222.027

[GRAPHIC] [TIFF OMITTED] 66222.028

[GRAPHIC] [TIFF OMITTED] 66222.029

[GRAPHIC] [TIFF OMITTED] 66222.030

[GRAPHIC] [TIFF OMITTED] 66222.031

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Dr. Harris. Thank you very much, Mr. Lochbaum. The 
Committee will now recess so we can go and vote. We will 
reconvene five minutes after the last vote.
    Committee is in recess.
    [Recess.]
    Chairman Broun. I want to thank the witnesses for your 
indulgence and apologize for the break, but we will try to 
expedite this. I want to thank the panel for your testimony. I 
remind Members that the Committee rules limit questioning to 
five minutes.
    The Chair, at this point, will open the round of questions. 
The Chair recognizes himself for five minutes.
    I am concerned nuclear groups will exploit the tragedy in 
Fukushima as an excuse to halt not only future expansion of 
nuclear power, but restrict relicensing of existing plants. Dr. 
Sheron, are you--I have a hard time pronouncing it--Chairman 
Jaczko and NRC committed to continue moving forward with 
reviewing the application--license application for the Vogtle 
plant in Georgia? What commitment can you provide that your 
office will continue to provide the necessary information for 
these licenses to advance?
    Dr. Sheron. Right now the Agency does not believe that 
there are any impediments to the continued either licensing of 
new plants or the renewed license of existing plants, such as 
the Vogel plant. So the Agency, as I understand, is moving 
forward with the relicensing of the plant, the review, and 
provided that the licensee provides all of the required 
information, I believe they will maintain on the agreed upon 
schedule.
    Chairman Broun. Well, I certainly hope so. It is absolutely 
critical for us to go forward in as expeditious a manner as 
possible, and I would encourage you to do so.
    The impetus for this hearing was the tragic event in Japan. 
Since then, the American south has experienced a tragedy of its 
own, in fact, even in my north Georgia district, several of my 
counties have been hit by that tragedy. Recent tornados in 
Alabama and the flooding of the Mississippi River unfortunately 
provide another opportunity for us to learn. How has the NRC 
incorporated in lessons learned from the recent events in the 
South? It has been reported that some reactors were taken 
offline as a result of the extreme weather. To your knowledge, 
were there any problems with any of these? How will this impact 
NRC's research portfolio, and how did the previous safety 
reviews prepare the U.S. for these events?
    Dr. Sheron. The events, the tornados that took place in the 
South did take down some transmission lines at some plants, 
which did cause loss of offsite power. My understanding is the 
emergency diesel generators at those sites did work as 
designed.
    We look at all natural phenomena that occur in the United 
States. We confer with other agencies, as I said before, like 
USGS, to determine if there is any new information that we need 
to take into account in the design of these plants. Nuclear 
plants are designed for tornados, for high winds, for storms. 
We look at floods that might occur in the vicinity when these 
plants are licensed to make sure that they are designed such 
that they can handle them.
    If we learn anything new that says the current design base 
for these plants is not adequate, then obviously the Agency 
will take action to make the plant--install, you know, whatever 
corrections are necessary.
    Chairman Broun. The answer is no problem at this point?
    Dr. Sheron. Yes.
    Chairman Broun. Okay, very good. Now that this 
Administration has decided to ignore the law and clear 
congressional direction, our Nation has no long-term storage 
plans for radioactive waste. Where is spent fuel stored at 
Fukushima? Where is the U.S. currently storing its spent fuel? 
How many sites have currently filled their available storage 
space? Have any waivers been granted or regulatory changes made 
to allow greater onsite storage, and has any comparative risk 
analysis been done to compare centralized storage with 
dispersed storage? Doctor?
    Dr. Sheron. The spent fuel at the Fukushima plant, as I 
understand, was stored on the site in the pools. I do not know 
if they had any dry cask storage. At the U.S. right now, plants 
store their fuel either at--in their spent fuel pools which 
have been designed to handle the amount of fuel that they can 
put in, that they can hold, or to independent spent fuel 
storage facilities, ISFS, they are called. Usually these are 
dry casks that are stored onsite or nearby, and are basically--
require air cooling.
    Chairman Broun. Are you going to allow expansion of those 
local pools since the Administration has closed down the Yucca 
Mountain storage facility?
    Dr. Sheron. Some licensees have come in and proposed to 
rerack the pools, which is to ``do'' a more dense configuration 
where they can hold more fuel. Licensees have to come in and 
present a safety analysis to demonstrate why that is acceptable 
and safe. I can't tell you which ones have done that so far. I 
don't have that information with me. I know there are some 
plants that do have the high density fuel racks.
    With regard to a comparative risk study, with regard to--
let me call it a minimally loaded spent fuel pool versus a 
fully loaded one, my office is beginning to undertake a 
comparative risk study to see what the differences are in risk 
to public health and safety between the two. My personal 
opinion is that pools have a lot of water in them, and 
regardless of the amount of fuel, it takes a very long time, if 
there was an accident, to actually drain the pool to the point 
where there would be an uncovering of the fuel, which gives 
licensees ample time to bring in either emergency equipment or 
to restore whatever did fail.
    Usually--and even if it was a drain down that was occurring 
or a boil off, the amount of time that is available before one 
actually starts as a release of radioactivity provides ample 
time for evacuation in the vicinity of the site so that people 
could be evacuated and there wouldn't be any harmful radiation 
effects.
    Chairman Broun. Thank you, Doctor. Your answer just further 
points out the need to open up Yucca Mountain for the 
Administration to start obeying the law.
    I now recognize Ms. Edwards for five minutes, and I will 
give you some leeway on that, Ms. Edwards. You are recognized 
for five minutes.
    Ms. Edwards. Thank you, Mr. Chairman, and thank you to the 
witnesses for your patience. Before I begin questions, I would 
like to ask the Chairman for unanimous consent to enter two 
Nuclear Regulatory Commission reports relating to the shutdown 
at Calvert Cliffs that I referenced earlier, and a report by 
Mr. Lochbaum at the Union of Concerned Scientists on the 14 
near-misses at U.S. power plants and their safety.
    Chairman Broun. Any objections? Hearing no objections, so 
ordered.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 66222.032
    
    [GRAPHIC] [TIFF OMITTED] 66222.033
    
    [GRAPHIC] [TIFF OMITTED] 66222.034
    
    [GRAPHIC] [TIFF OMITTED] 66222.035
    
    [GRAPHIC] [TIFF OMITTED] 66222.036
    
    [GRAPHIC] [TIFF OMITTED] 66222.037
    
    [GRAPHIC] [TIFF OMITTED] 66222.038
    
    [GRAPHIC] [TIFF OMITTED] 66222.039
    
    [GRAPHIC] [TIFF OMITTED] 66222.040
    
    [GRAPHIC] [TIFF OMITTED] 66222.041
    
    [GRAPHIC] [TIFF OMITTED] 66222.042
    
    [GRAPHIC] [TIFF OMITTED] 66222.043
    
    [GRAPHIC] [TIFF OMITTED] 66222.044
    
    [GRAPHIC] [TIFF OMITTED] 66222.045
    
    [GRAPHIC] [TIFF OMITTED] 66222.046
    
    [GRAPHIC] [TIFF OMITTED] 66222.047
    
    [GRAPHIC] [TIFF OMITTED] 66222.048
    
    [GRAPHIC] [TIFF OMITTED] 66222.049
    
    [GRAPHIC] [TIFF OMITTED] 66222.050
    
    [GRAPHIC] [TIFF OMITTED] 66222.051
    
    [GRAPHIC] [TIFF OMITTED] 66222.052
    
    [GRAPHIC] [TIFF OMITTED] 66222.053
    
    [GRAPHIC] [TIFF OMITTED] 66222.054
    
    [GRAPHIC] [TIFF OMITTED] 66222.055
    
    [GRAPHIC] [TIFF OMITTED] 66222.056
    
    [GRAPHIC] [TIFF OMITTED] 66222.057
    
    [GRAPHIC] [TIFF OMITTED] 66222.058
    
    [GRAPHIC] [TIFF OMITTED] 66222.059
    
    [GRAPHIC] [TIFF OMITTED] 66222.060
    
    [GRAPHIC] [TIFF OMITTED] 66222.061
    
    [GRAPHIC] [TIFF OMITTED] 66222.062
    
    [GRAPHIC] [TIFF OMITTED] 66222.063
    
    [GRAPHIC] [TIFF OMITTED] 66222.064
    
    [GRAPHIC] [TIFF OMITTED] 66222.065
    
    [GRAPHIC] [TIFF OMITTED] 66222.066
    
    [GRAPHIC] [TIFF OMITTED] 66222.067
    
    [GRAPHIC] [TIFF OMITTED] 66222.068
    
    [GRAPHIC] [TIFF OMITTED] 66222.069
    
    [GRAPHIC] [TIFF OMITTED] 66222.070
    
    [GRAPHIC] [TIFF OMITTED] 66222.071
    
    [GRAPHIC] [TIFF OMITTED] 66222.072
    
    [GRAPHIC] [TIFF OMITTED] 66222.073
    
    [GRAPHIC] [TIFF OMITTED] 66222.074
    
    [GRAPHIC] [TIFF OMITTED] 66222.075
    
    [GRAPHIC] [TIFF OMITTED] 66222.076
    
    [GRAPHIC] [TIFF OMITTED] 66222.077
    
    [GRAPHIC] [TIFF OMITTED] 66222.078
    
    [GRAPHIC] [TIFF OMITTED] 66222.079
    
    [GRAPHIC] [TIFF OMITTED] 66222.080
    
    [GRAPHIC] [TIFF OMITTED] 66222.081
    
    [GRAPHIC] [TIFF OMITTED] 66222.082
    
    [GRAPHIC] [TIFF OMITTED] 66222.083
    
    [GRAPHIC] [TIFF OMITTED] 66222.084
    
    [GRAPHIC] [TIFF OMITTED] 66222.085
    
    [GRAPHIC] [TIFF OMITTED] 66222.086
    
    [GRAPHIC] [TIFF OMITTED] 66222.087
    
    [GRAPHIC] [TIFF OMITTED] 66222.088
    
    [GRAPHIC] [TIFF OMITTED] 66222.090
    
    [GRAPHIC] [TIFF OMITTED] 66222.092
    
    [GRAPHIC] [TIFF OMITTED] 66222.094
    
    [GRAPHIC] [TIFF OMITTED] 66222.095
    
    [GRAPHIC] [TIFF OMITTED] 66222.096
    
    [GRAPHIC] [TIFF OMITTED] 66222.098
    
    [GRAPHIC] [TIFF OMITTED] 66222.099
    
    [GRAPHIC] [TIFF OMITTED] 66222.100
    
    [GRAPHIC] [TIFF OMITTED] 66222.101
    
    [GRAPHIC] [TIFF OMITTED] 66222.102
    
    [GRAPHIC] [TIFF OMITTED] 66222.103
    
    [GRAPHIC] [TIFF OMITTED] 66222.104
    
    [GRAPHIC] [TIFF OMITTED] 66222.105
    
    [GRAPHIC] [TIFF OMITTED] 66222.106
    
    [GRAPHIC] [TIFF OMITTED] 66222.107
    
    [GRAPHIC] [TIFF OMITTED] 66222.108
    
    [GRAPHIC] [TIFF OMITTED] 66222.109
    
    [GRAPHIC] [TIFF OMITTED] 66222.110
    
    [GRAPHIC] [TIFF OMITTED] 66222.111
    
    [GRAPHIC] [TIFF OMITTED] 66222.112
    
    [GRAPHIC] [TIFF OMITTED] 66222.113
    
    [GRAPHIC] [TIFF OMITTED] 66222.114
    
    [GRAPHIC] [TIFF OMITTED] 66222.115
    
    [GRAPHIC] [TIFF OMITTED] 66222.116
    
    [GRAPHIC] [TIFF OMITTED] 66222.117
    
    [GRAPHIC] [TIFF OMITTED] 66222.118
    
    [GRAPHIC] [TIFF OMITTED] 66222.119
    
    [GRAPHIC] [TIFF OMITTED] 66222.120
    
    [GRAPHIC] [TIFF OMITTED] 66222.121
    
    [GRAPHIC] [TIFF OMITTED] 66222.122
    
    [GRAPHIC] [TIFF OMITTED] 66222.123
    
    [GRAPHIC] [TIFF OMITTED] 66222.124
    
    [GRAPHIC] [TIFF OMITTED] 66222.125
    
    [GRAPHIC] [TIFF OMITTED] 66222.126
    
    [GRAPHIC] [TIFF OMITTED] 66222.127
    
    [GRAPHIC] [TIFF OMITTED] 66222.128
    
    [GRAPHIC] [TIFF OMITTED] 66222.129
    
    [GRAPHIC] [TIFF OMITTED] 66222.130
    
    [GRAPHIC] [TIFF OMITTED] 66222.131
    
    [GRAPHIC] [TIFF OMITTED] 66222.132
    
    [GRAPHIC] [TIFF OMITTED] 66222.133
    
    [GRAPHIC] [TIFF OMITTED] 66222.134
    
    [GRAPHIC] [TIFF OMITTED] 66222.135
    
    [GRAPHIC] [TIFF OMITTED] 66222.136
    
    [GRAPHIC] [TIFF OMITTED] 66222.137
    
    [GRAPHIC] [TIFF OMITTED] 66222.138
    
    [GRAPHIC] [TIFF OMITTED] 66222.139
    
    [GRAPHIC] [TIFF OMITTED] 66222.140
    
    [GRAPHIC] [TIFF OMITTED] 66222.141
    
    [GRAPHIC] [TIFF OMITTED] 66222.142
    
    [GRAPHIC] [TIFF OMITTED] 66222.143
    
    [GRAPHIC] [TIFF OMITTED] 66222.144
    
    [GRAPHIC] [TIFF OMITTED] 66222.145
    
    Ms. Edwards. Thank you very much, Mr. Chairman. I have a 
question, actually, for Mr. Lochbaum. I know that the Union of 
Concerned Scientists in that report that we just entered into 
the record concluded that ``Nuclear subsidies effectively 
separate risk from reward, shifting the burden of possible 
losses onto the public and encouraging speculative investment 
by masking the true cost of nuclear power, and that subsidies 
also allow the industry to exaggerate its economic 
competitiveness. Consequently, they diminish or delay support 
for more economical and less risky alternatives, like energy 
efficiency and renewable energy.'' That is a direct quote from 
your report. Do you believe that the nuclear power companies 
would be economically viable without substantial federal 
subsidies they receive from taxpayers?
    Mr. Lochbaum. Based on the work we have done and the 
industry's own request for loan guarantees and other subsidies, 
the answer seems pretty clear that they would not be.
    Ms. Edwards. I wonder if you could elaborate on how public 
subsidies, and especially at the levels at which we subsidize 
the industry to nuclear power distort risk in the nuclear power 
industry?
    Mr. Lochbaum. I think the best example of that would be the 
Price-Anderson Federal Liability Protection. Plant owners have 
to get approximately $375 million of private liability 
insurance, and the Price-Anderson Act protects against 
liability costs above that. That is a big savings for the plant 
owners, but more importantly, it discourages the reactor 
vendors from developing designs that are less risky and much 
safer, because there is no incentive--while the higher cost of 
those safety features may be borne out, because they don't get 
a break on the insurance protection, the liability insurance 
that they get, it is hard to sell that into a marketplace when 
you are competing with cheaper, less safe reactors. So the 
federal subsidies are actually discouraging reactor designers 
from coming up with safer reactors that better protect 
Americans.
    Ms. Edwards. So this leads me to a question about 
identifying and fixing safety risks. Do you think the NRC does 
what it needs to in both identifying safety risks and forcing 
fixes to these known safety problems at our power plants in a 
timely way?
    Mr. Lochbaum. During my ten years experience with UCS and 
during my predecessor's 20 years, we find that the NRC does a 
very good job at setting the safety bar at the right height. 
They establish regulations that provide adequate protection of 
public health. They don't do a very good job of enforcing those 
regulations. Too many plant owners are limboing beneath the 
safety bar for too long, putting Americans at higher risk, and 
additionally driving the costs of nuclear power upwards 
inexplicably.
    Ms. Edwards. So in my colleague Mr. Harris's opening 
statement, he indicated that Fukushima is a type of accident 
that really is not possible here, given our nuclear regulatory 
environment, and so Mr. Lochbaum, I wonder if you could respond 
to that question as to whether there is a major nuclear--
whether a major nuclear accident is actually possible here in 
the United States, given the NRC's oversight of our reactors?
    Mr. Lochbaum. I think, again, the best proof that it is 
possible is the fact that the nuclear industry cannot operate 
nuclear power plants without federal liability protection. If 
there wasn't a chance of such a catastrophic accident, they 
could go down to State Farm and get private liability 
insurance. The fact that they can't means that they themselves 
recognize that these plants are unusual hazards of 
unprecedented nature.
    Ms. Edwards. So let us go to something as simple as battery 
backup. At Fukushima, you indicated that the battery--I think 
it was in Mr. Barrett's testimony--I apologize, I probably got 
it all wrong. Whoever had the slides up there--that the battery 
backup at Fukushima was eight hours of battery backup, and 
compared to U.S. plants, what is the backup like at U.S. plants 
in the event of some catastrophic disaster?
    Mr. Lochbaum. The battery backup is basically the same for 
U.S. reactors. Some reactors only have four hours of battery 
backup, so they would be even more vulnerable to that 
situation. Studies done by the Nuclear Regulatory Commission 
show that many of our reactors, the station blackout where you 
are relying on battery, the De Salle plant in Illinois, for 
example, that is 80 percent of the overall risk of core 
meltdown. It is equal to four times the risk of all other 
things leading to meltdown combined, so it is station blackout 
and battery dependence at our U.S. reactor.
    Ms. Edwards. Yes, so let us take away the fact that we 
might have a hurricane or tornado, or some other thing, simple 
blackout that could be caused by any number of factors actually 
poses a strong vulnerability for risk, isn't that right?
    Mr. Lochbaum. That is absolutely right. I mean, when you 
get down to station blackouts, you only have one safety system 
working. If something causes that to go away, you played beat 
the clock and lost, like they did in Japan.
    Ms. Edwards. Thank you very much, and thank you, Mr. 
Chairman.
    Chairman Broun. Thank you, Ms. Edwards.
    Now I recognize Mr. Rohrabacher for five minutes.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and 
thank you for your leadership in holding this hearing.
    Let me first ask, you just made a statement about the 
subsidies, and without the subsidies nuclear power would not be 
able to compete. Is that not also true of solar and most of the 
other renewables? By the way, we subsidize them to the tune of 
billions every day, so here we are--are those subsidies not 
necessary? Is this a new revenue source for us to defund those 
subsidies for the renewables?
    Mr. Lochbaum. There is no such thing as a free lunch. 
Everybody gets a shot at the apple. I think the point we were 
trying to make was that nuclear power has been subsidized so 
heavily over so many years and has built in subsidies that it 
is not a level playing field.
    Mr. Rohrabacher. I got you, but you reach a certain plateau 
and subsidies are still necessary for the nuclear energy, but 
let me just note, as we stand today, we are subsidizing perhaps 
even heavier these new supposed renewable sources of energy.
    How many people--I am just asking the panel--how many 
people have died in nuclear power accidents over the last 50 
years here in the United States? Anybody?
    Mr. Lochbaum. There is the one that is buried in Arlington 
from the January 3, 1961 accident, so----
    Mr. Rohrabacher. So since 1961 has there been anybody? I 
mean, there is one guy back in 1961. Anybody else?
    Mr. Lochbaum. He had two colleagues.
    Mr. Rohrabacher. Okay. How many people have died in the 
production of coal during that time period? I think we are 
talking about hundreds of people, are we not, maybe thousands.
    Mr. Lochbaum. Probably in the thousands.
    Mr. Rohrabacher. Probably in the thousands, because we are 
also talking about lung disease that people get from coal, et 
cetera. So there is a place for that, too, although coal isn't 
subsidized, or is it subsidized? Yes. Perhaps we are taking 
care through the black lung whatever fund that we have and that 
we fund federally, so there are subsidies for coal even as 
well.
    So what strikes me today is, of course, we have seen the 
crisis over in Japan, this horrible accident which we now seem 
to say that there are not large numbers of people dying, but 
this puts people at risk. Have people lost their lives in Japan 
already? Has anybody been--and I mean, I know in Chernobyl they 
certainly did. Is the Japanese accident resulted in loss of 
life?
    Mr. Sheron. We are not aware of any nuclear related deaths 
from the Fukushima.
    Mr. Rohrabacher. Well the tsunami, of course. Right.
    Mr. Sheron. Yeah, the tsunami, obviously people died there, 
but if not----
    Mr. Rohrabacher. Any nuclear-related deaths? All right. Now 
let me just say that this is--all of this is happening while we 
are utilizing 50-year-old technology. All the complaints that 
we hear and the risk that is being taken, if there is a risk, 
is happening because we are utilizing 50-year-old nuclear 
technology. Light water reactors were put in place in the '60s, 
were they not?
    Mr. Sheron. Even sooner than that.
    Mr. Rohrabacher. Right, even sooner than that. There is a 
new generation of nuclear power plants that come to grips with 
many of the challenges that exist that require subsidies, et 
cetera, for the nuclear industry, and that new technology is 
actually focused on small modular reactors and high temperature 
gas cool reactors. Should we not then start focusing our 
efforts on these new technologies rather than making the light 
water reactors a bit safer? Shouldn't we be focusing our 
research and energy on putting in place high temperature gas 
cool reactors which cannot melt down and maybe these small 
modular reactors, which would be dramatically safer?
    Mr. Sheron. I will take a shot at that. At the NRC, we 
don't really pass judgment on what kind of reactors should be 
built. We leave that up to the industry and the Department of 
Energy to determine that. Our job is to determine if what is 
put in front of us meets our regulations and is safe.
    Mr. Rohrabacher. Let me just--for the record, Mr. Chairman, 
state that in various studies that I have made and hearings 
that I have been at, it is very clear that we have now the 
capability of overcoming many of the challenges that nuclear 
energy 50 years ago posed to us. For example, the elimination 
of waste, you actually have some of these new reactors that 
will bring the level of waste being stored in Yucca Mountain 
down, rather than bundle it up, meaning that it actually burns 
used fuel as part of its own fuel cycle.
    So as we look at the safety and the challenges of nuclear 
energy, I would hope that we keep in mind that a lot of the 
challenges and a lot of the criticisms are the old technology, 
and we have a great new opportunity to move forward with new 
technology and solve these problems.
    Thank you very much, Mr. Chairman.
    Chairman Broun. Thank you, Mr. Rohrabacher.
    Chair now recognized Mr. Miller for five minutes.
    Mr. Miller. Thank you. Dr. Lochbaum mentioned the Price-
Anderson Act as a substantial subsidy for the industry, and in 
traditional economic theory, the market mechanism for safety is 
liability, that if you cause harm to others, then you are 
responsible for it. You make them whole, you compensate them 
for their losses. Does anyone dispute that a cap on liability 
is a subsidy to an industry?
    Okay, so you all agree with that. I understand that Price-
Anderson limits the liability to $375 million. What 
relationship does that have to the actual risk? Dr. Lochbaum?
    Mr. Lochbaum. It is pretty much decoupled from that. That 
was set as a number that has been upped over the years. The way 
Price-Anderson works, if there is offsite damages that exceed 
that number, whatever it is, then the rest of the surviving 
reactors are invoiced to make up the difference. In the old 
days when they regulated utility companies, that secondary pool 
was pretty much guaranteed. Today, many of the reactors are 
limited liability corporations that may shut down and not be 
available to pay into that secondary pool.
    Mr. Miller. I guess my question is will the actual lawsuits 
of Fukushima or a similar accident be anywhere in the 
neighborhood of $375 million, or whatever the liability is 
under Price-Anderson, or it could be substantially more?
    Mr. Lochbaum. If Fukushima is any indication, they drive by 
that almost the first day, very quickly. Much higher.
    Mr. Miller. And the subsidy is perhaps not borne by 
taxpayers, but it is borne by random depending on which way the 
wind blows.
    Mr. Rohrabacher mentioned the experience since 1961, and 
usually lawsuits go into actuarial considerations and 
underwriting and insurance is pretty good at that. That is 
their business. Even with no deaths since 1961, do any of you 
think that industry could get insurance--liability insurance 
without a cap, given the 50 years of no deaths? No one thinks 
that? I mean, so the industry continues to say that the risk is 
acceptable, so long as someone else bears it? If the risk is on 
them, it is unacceptable.
    Dr. Lochbaum, there sometimes is a tradeoff between safety 
and profits. In your work in the industry, have you identified 
any shortcuts that might be--might make operations more 
profitable but less safe?
    Mr. Lochbaum. There are those opportunities. For example, 
we are aware of right now that the industry knows of about half 
the plants operating in the United States don't need fire 
protection regulations who were adopted after the 1975 fire at 
Brown's Ferry. The plant owners who have consciously spent the 
money to come into compliance are actually at a cost 
disadvantage to their neighbors who are outlaws, nuclear 
outlaws. The Nuclear Regulatory Commission is basically 
enabling bad behavior that drives cheaper plants to be less 
safe plants. If the industry were to enforce its regulations, 
those fire protection regulations, people would be protected, 
but more importantly, the people wouldn't benefit from 
violating the law as they have in the past.
    Mr. Miller. All right. Mr. Rohrabacher also mentioned new 
technologies. Do you think the new technology will dramatically 
change the potential risk of nuclear accidents? Could a nuclear 
power company--a company operating a nuclear power plant go to 
insurance companies and say look, we have got this new 
technology, now will you write us some coverage?
    Mr. Lochbaum. At a House hearing back in I think it was 
2006, there was a vendor, reactor vendor at the table who was 
asked that question, and he said his company was so--could 
stand behind their reactor design and opt out of Price-
Anderson. No other reactor vendors I have heard have said that, 
and reactor operators haven't said that either.
    Mr. Miller. Okay. Do you--Dr. Lochbaum, how safe do you 
think these plants will be if--compared to the old technology? 
Will there be a dramatic difference in safety?
    Mr. Lochbaum. What we have in the new reactors is that the 
chances of an accident are less with the new reactors, but any 
time a safety gain is made in that regard, the containment is 
made less robust and there are savings done, so that the cost 
remains the same. As a result, the number of accidents would be 
fewer, but the number of dead bodies will be greater.
    Mr. Miller. My time is almost expired. I will yield back 
the little bit that I have got.
    Chairman Broun. Thank you, Mr. Miller.
    Chair now recognizes Dr. Harris for five minutes.
    Dr. Harris. Thank you very much, Mr. Chairman. I want to 
thank the panel for your patience as we went and voted.
    Mr. Lochbaum, from what I understand, you are making the 
availability to get liability insurance kind of a guide as to 
how safe something is. I know a lot of obstetricians and 
neurosurgeons in some States who just can't get liability 
insurance from commercial companies. They literally couldn't 
get it, so the State had to form insurance companies. How is 
that different from what is going on? I mean, I assume that 
there are people who still think it is safe to go to an 
obstetrician, safe to go to a neurosurgeon, but in fact, there 
are instances where you can't conduct normal business, because 
look, there is tort in this world. What can I say? Isn't that 
true? I mean, aren't there other circumstances where the 
government has to step in to insure things that people consider 
pretty safe, I mean, going to an obstetrician, going to a 
neurosurgeon?
    Mr. Lochbaum. There is, but if you look in the energy 
technology sector, nuclear power is the only one that is so 
hazardous that it needs----
    Dr. Harris. Oh, I understand that, but in the medical 
sector it is only OB/GYNs and neurosurgery. That doesn't mean 
that it is dangerous to go to a neurosurgeon, that is my only 
point. I mean, to use that as--you know, because you do 
represent the Union of Concerned Scientists, I mean, I don't 
think that is a very scientific way to look at it, to be honest 
with you, because we know from other areas where tort law is an 
issue that that just doesn't work. The world just doesn't work 
that way. It is not that simple.
    Dr. Boice, there has been--you know, part of the discussion 
and I think Mr. Lochbaum's testimony actually brings it up, 
part of the problem is with spent fuel and the risks with spent 
fuel. You know, an issue that I think is probably going to come 
before us at some point is the getting spent fuel out of these 
plants and eventually getting to a central location. Have you 
looked into at all the risks associated on populations with 
using a central repository like Yucca Mountain? Do you have any 
writings that you can provide me or provide the Committee?
    Dr. Boice. No, not specifically with regard to spent fuel 
and enhanced levels of radiation in the background. We have 
done a number of studies of people that lived in areas of 
enhanced background radiation in China and other countries 
where they have been exposed to increased levels that might, in 
some sense, be relevant. We have also done studies that 
evaluated cancer risks around all the nuclear power facilities, 
including those with proximal spent fuel storage in the United 
States and all the DoE facilities. So there actually are a 
number of studies in counties and areas close by that we could 
provide for you that might be somewhat relevant, but not 
specific to spent fuels and the levels of radiation from those 
exposures.
    Dr. Harris. And is it because--I mean, is the reason 
because that is a--is probably a much, much lower risk than the 
risks associated with the plant, which is already low enough, 
than the storage of spent fuels in a facility like Yucca 
Mountain?
    Dr. Boice. I just have not had an opportunity to look at 
that issue, except indirectly since many nuclear power plants 
have their spent fuel stored in areas close to the operating 
reactor.
    Dr. Harris. Okay, thank you very much.
    Mr. Barrett, as you are aware, the Department of Energy 
does and has been moving forward with their next generation 
nuclear plant project for some time. My understanding is that 
the high temperature gas cooled reactors may have some very 
specific safety advantages, some of which--mitigating some of 
the risks we have been talking about today. Could you speak to 
the safety characteristics of that kind of reactor?
    Mr. Barrett. I am not an expert on gas cooled reactors, but 
I know a little bit about them. They have very excellent 
physics. They have a lot of very valuable safety aspects. They 
have developmental challenges ahead of them, economics and 
other things as well. But gas cooled reactors are a very good, 
safe technology. It is very passive, it doesn't heat up as 
quickly as some of the others do.
    Dr. Harris. In your opinion, would that be a reason perhaps 
for the Department of Energy to more aggressively pursue 
research into that, because it does address some of those 
problems with things like passive cooling?
    Mr. Barrett. The Department of Energy has many worthy 
projects that they are working in their R&D program, that 
certainly is a worthy project and it is there. Relative to 
other R&D projects, I am afraid I can't really judge from where 
I am today.
    Dr. Harris. Okay, thank you very much. I am going to yield 
back my time, Mr. Chairman.
    Chairman Broun. Thank you, Dr. Harris.
    Now the Chair recognizes Mr. McNerney for five minutes.
    Mr. McNerney. Thank you, Mr. Chairman. One of the 
advantages of being the last Member to ask questions, I may 
have a little extra leeway in terms of my time, so I don't feel 
quite as pressured.
    We are a little lucky here in Congress to have so many 
physicians that can expand their experience to the rest of 
life, so I really appreciate the wisdom that we get very 
frequently from the other side of the aisle in that regard.
    Let us talk about the backlog at the NRC. Would--Dr. 
Sheron, can you describe how long it would take for someone or 
an organization that submits a design to get the decision on 
that design?
    Mr. Sheron. I presume you are talking about a new plant 
design?
    Mr. McNerney. Yes.
    Mr. Sheron. I believe that the Agency has identified a 
schedule. I can't remember exactly what the time is. I believe 
it is on the order of maybe several years.
    Mr. McNerney. Five years?
    Mr. Sheron. I think it is less than that. A lot of it is 
dependent upon the quality of the submittal, however, whether 
the licensee--the applicant has adequately addressed all of the 
safety issues and is providing a strong technical basis to 
support them.
    Mr. McNerney. So is the new design evaluation in 
competition for resources, for NRC resources with safety 
evaluations of existing plants or new issues that come up in 
that regard?
    Mr. Sheron. No. When there was an indication that there 
would be new designs coming in, the Agency purposely split the 
Office of Nuclear Reactor Regulation into two separate offices. 
One is the Office of New Reactors, and the other is the Office 
of Nuclear Reactor Regulation. The Office of Nuclear Reactor 
Regulation focuses solely on the safety of the current 104 
operating plants. The Office of New Reactors focuses solely on 
the licensing of the new applications.
    Mr. McNerney. So would you say that your modeling--and I am 
not trying to throw arrows here or anything--that your modeling 
capabilities are state of the art, you have the best computers, 
the best numerical techniques and so on in doing modeling, both 
of the design and of the nuclear fuel rod modeling, safety 
modeling?
    Mr. Sheron. Yes, I would probably say that the NRC has the 
best--some of the best models in the world, which is evidenced 
by the fact that most of the other nuclear countries--developed 
nuclear countries request our models, and we have a numerous 
cooperative programs where we provide our models to others to 
use.
    Mr. McNerney. Okay, good. Now with regard to failsafe, in 
my mind, failsafe means fail safe. It doesn't mean fail badly. 
We have had a couple of cases lately, one in Fukushima, one in 
the Gulf Coast last year where failsafe really didn't mean fail 
safe. Is your modeling able to predict any of these failures 
that were supposed to be failsafe that actually weren't 
failsafe?
    Mr. Sheron. We don't--I don't think there are any designs 
right now that are totally failsafe. Obviously one can 
postulate failures that are going to, you know, lead to an 
accident. Our computer codes are able to model those failures 
and to predict the consequences. If we see that the 
consequences are too high or that there are other mitigative 
things that could be done, then we certainly pursue them with 
the industry or through regulation.
    Mr. McNerney. So I mean, you basically have said--I think 
you just said that the current design is not really failsafe. 
That is basically the situation, isn't it?
    Mr. Sheron. Well, what I am saying is that there are low 
probability events that one could postulate, okay? In other 
words, if one postulates enough failures, which again, become 
very low probability----
    Mr. McNerney. Well they sound like they are low probability 
until they happen, and then they say geez, that wasn't as 
unlikely as we thought it was. Obviously, no one predicted a 
14-meter tsunami in Japan. That was completely unforeseen.
    Mr. Sheron. It was not unforeseen. I have heard reports 
that there was some prediction that the design basis at 
Fukushima was not adequate, but I am not at liberty or I am not 
really going to speculate on whether that is appropriate, you 
know, in other words whether or not the TEPCO organization 
designed the plant properly. What I will say is that we have 
looked at the design of U.S. plants against tsunamis and 
earthquakes, and we have concluded that we believe that our 
plants, you know, are adequately designed for those. In other 
words, we can predict fairly well, for example, the wave height 
of any tsunami that might occur and we make sure that the 
plants are adequately designed.
    Mr. McNerney. But we have heard this morning that a simple 
blackout, which could last, depending on what the cause is, for 
a week or a month if there is a significant transformer that 
goes down at a substation, which puts these plants at 
significant risk.
    Mr. Sheron. You have got to be careful when you say it is a 
simple blackout. It is not a simple blackout. What the--what 
you are concerned about is first that you lose the offsite 
power source, which is the preferred source of power to the 
plant. The plant has two independent diesel generators that are 
designed to start and provide electricity to power the safety 
systems. You now have to postulate that both of those diesels 
don't start, not just one, but both don't start. Then there are 
additional backup systems that will run for some period of 
time. We do----
    Mr. McNerney. That sounds good, but we just saw at 
Fukushima that that wasn't necessarily the case.
    I just want to make a little plug here. You know, you talk 
about the current generation of nuclear being safer--the 
current technology being safer than 50-year-old technology, and 
maybe that is the case, you know. I don't really know, I am not 
a nuclear engineer. But there is fast neutron technology that 
would be inherently failsafe, is that correct, Dr. Lochbaum?
    Mr. Lochbaum. I am not aware of that, I would have to look. 
I don't know offhand if that is true or false.
    Mr. McNerney. Well, I find myself in agreement with Mr. 
Rohrabacher, and I am going to take just a few more moments 
here. We need to be aware of the new technology and make sure 
that if there is a fourth generation or fast neutron technology 
that it gets proper attention, and meanwhile, be very skeptical 
of claims of failsafe or highly improbable incidents.
    Thank you, Mr. Chairman, for your indulgence.
    Chairman Broun. You are quite welcome.
    We will now undertake a second round of questions, and I 
yield myself five minutes.
    Mr. Barrett, Chairman Jaczko made a recommendation or made 
a judgment of a 50-mile evacuation to U.S. citizens at 
Fukushima. Were you involved in evacuation actions during the 
Three Mile Island accident?
    Mr. Barrett. Yes, I was at Three Mile Island, not at 
Fukushima.
    Chairman Broun. I should just ask you about Three Mile 
Island. Were there any NRC lessons learned from that 
experience?
    Mr. Barrett. Yes, the NRC and everybody learned a lot from 
that experience. One of the lessons learned from that is it is 
not just the nuclear computer codes and the ``what if'' 
calculations that are made at that time, but it is also what 
are the conditions on the ground, what is the situation with 
the people? Because you are trying to make a judgment call, 
whoever is making these evacuation recommendation decisions, to 
do the best thing for the people at that time under those 
conditions.
    Chairman Broun. Do you think this was done properly at 
Three Mile Island?
    Mr. Barrett. At Three Mile Island, at the time we made the 
decisions, and I was part of that, I thought it was the right 
thing to do at that time. However, I went and lived there for 
four years and I saw what the impact of that was and what the 
practicality of what an evacuation does to the people. After I 
learned from that experience, I felt it was inappropriate that 
we did that evacuation at Three Mile Island in the early days.
    Chairman Broun. After your experiences at Three Mile 
Island, do you believe that the 50-mile judgment by NRC 
Chairman Jaczko made for U.S. citizens at Fukushima was 
appropriate, and if you would please explain?
    Mr. Barrett. No, I don't think that really was Chairman 
Jaczko's judgement in the net sense. I believe that decision 
was a poor judgment decision, insofar as it was 
counterproductive and detrimental to all the people in Japan, 
the Japanese people as well as the Americans, because I don't 
think it appropriately considered the horrendous conditions 
that the people of Japan were under at that point with the 
tsunami and the earthquake. I mean, people were freezing in the 
north. A 50-mile evacuation radius hinders the ability of the 
people in the unaffected south to bring lifesaving supplies and 
things to people in the north. So I think it did not 
appropriately consider the situation on the ground. It was my 
understanding it was more of a worst case computer analysis 
``what if'' type of projection. So my sense is there was not a 
sufficient evaluation of the conditions in Japan. I think it 
put a lot of confusion and uncertainty in the minds of people 
between the 12-mile official Japanese radius and the 50-mile 
U.S. one. People would ask each other ``Why is yours different 
from mine?'' In my view, I think one country should not second 
guess another country from 10,000 miles away as to what is the 
best thing for the citizens at that point.
    Chairman Broun. Thank you, Mr. Barrett.
    Next question is for Dr. Boice. In the days following the 
Japanese disaster, U.S. Surgeon General Regina Benjamin 
responded to questioning about citizens stocking up on 
potassium iodide--actions were ``definitely appropriate'' 
cautions to take. What is your reaction to this suggestion, and 
is there any scientific basis for such recommendation, given 
the radiation levels that were detected?
    Dr. Boice. I believe--when the surgeon general mentioned 
that, it was shortly after the accident and all the evidence 
wasn't in about the radiation releases. When we found that the 
levels were so tiny, it certainly is an inappropriate action to 
make the statement that we should be distributing potassium 
iodide pills. I concur with the public health department from 
California and also the director of our own CDC that potassium 
iodide should not be given. There are adverse health effects, 
and particularly dangerous for people who have sensitivities to 
iodine, people who have thyroid disease and also people who are 
allergic to shellfish. Then if it is taken inappropriately, 
there can be serious effects such as heart abnormalities, 
nausea, and diarrhea. So the benefit, which is almost 
nonexistent because the levels of radiation are so incredibly 
small, is not sufficient with regard to these potential adverse 
health effects.
    Chairman Broun. Dr. Boice, I appreciate your efforts to put 
radiation risk in perspective. I was struck that you note that 
the U.S. Capitol building is frequently cited as having some of 
the highest radiation levels in the United States at 85 
millirem per year. Could you put that level, which Members and 
employees of Congress are exposed to every day, in perspective 
with amount of elevated radiation that Americans on the West 
Coast might have been exposed to as the result of Fukushima?
    Dr. Boice. Certainly. The Capitol building for long term 
exposures of over a year might be on the order of 85 millirem 
from the gamma rays from the granite that was used in the 
building. From the Fukushima radiation, the potential exposure 
even to California is much, much less than one unit, 1 
millirem. So it is a very tiny, inconsequential exposure. It is 
much less than just what we get every day from normal radiation 
exposures from natural background.
    Chairman Broun. Thank you, Dr. Boice. I now recognize Ms. 
Edwards for five minutes.
    Ms. Edwards. Thank you, Mr. Chairman, and thank you very 
much for this second round of testimony.
    You know, we heard from Mr. Rohrabacher that since we 
haven't had scores of dead bodies from past nuclear accidents, 
we shouldn't be worried about the future safety of nuclear 
plants, and I think the jury is still out, frankly, on what the 
long-term consequences are of even Fukushima, and I would note 
that as yet, nobody has done one of those longitudinal studies 
because we haven't actually had sufficient time pass. And yet, 
I keep seeing claims also that accidents like Fukushima 
couldn't happen here and that health effects of the disaster in 
Japan were inconsequential. Again, I think the jury is still 
out, but it does seem to be a bit of a mixed message that 
suggests that we are safe and nothing bad has happened anyway, 
and so, you know, let us just wait. And then here I see the 
cover of this week's New York Times on the Wednesday edition, 
and here you have got people--a couple in Japan in radiation 
protection gear, clearing out their precious possessions from a 
home that they may never be able to return to because of an 
accident. So I don't think we should have to wait until the 
accident happens before we figure out the safety of our plants.
    Mr. Lochbaum, I wonder if you could tell us whether we 
understand the full impacts of Fukushima on health and safety 
in the communities around the plant, and if you could, 
elaborate on the 14 near-misses that occurred at U.S. power 
plants last year alone, and your key findings about what your 
biggest concerns are regarding nuclear safety here in this 
country?
    Mr. Lochbaum. To address the first part of that question, I 
don't think we know what the human fallout from Fukushima will 
be. For example, because of the contamination they have had to 
increase the dose at schools in the area. Essentially, they 
have drafted all the school children into the nuclear workforce 
and the school children are now applied to the same radiation 
limits as nuclear plant workers. They had to do that, they 
really had no choice. The radiation levels are so high. The 
radiation elevation could cause problems for those children 
down the road, and we won't know that, unfortunately, for a 
while.
    The study we did, we looked at the 14 near-misses, and the 
near-misses were times--events that occurred at nuclear power 
plants where the NRC had to send out a special team to look. 
What we found was that most of those 14, there were warning 
signs that were missed by the plant's owner and by the Nuclear 
Regulatory Commission that had they been heeded, the near-miss 
would have been avoided.
    What concerns us about that is if you continue to miss--
overlook the near-misses, the warning signs, you are setting 
the stage for preexisting conditions to cause that very bad 
day, should they be challenged. So the fact that we got lucky 
on those near-misses is great, but we need to remove luck from 
the equation to the extent we can.
    Ms. Edwards. Thank you very much.
    Lastly, I think we have heard a lot about--and Mr. 
Rohrabacher alluded to this--that we haven't built a new plant 
in this country for 30 years. New plants are being built 
overseas. I understand that they are being build in Finland and 
France and those have been pointed to as examples of where we 
need to go in terms of the technology, but I wonder if you can 
tell us, particularly Mr. Lochbaum, how the construction of 
those reactors is going? Are they on schedule, are they on 
budget, are we going to see them come online at any time, 
because it underscores, I think, the question about whether it 
makes sense to invest in these kind of long-term huge costs for 
a new plant without having the most aggressive regulatory 
scheme in place to make sure that they are safe.
    Mr. Lochbaum. Well, both the nuclear plant under 
construction in Finland and in France are over budget and 
behind schedule. It is more than 25 percent over budget in 
Finland and several years behind schedule. They had trouble 
pouring concrete. They got bad concrete as a result. They had 
trouble with pipes, basic stuff that is nuclear 101 we didn't 
learn from the first go around and they are paying the price, 
not us.
    Ms. Edwards. So what was--the cost of the French plant was 
what, initially?
    Mr. Lochbaum. I don't--$6 billion.
    Ms. Edwards. And it is 25 percent over budget?
    Mr. Lochbaum. So far, they are not done yet.
    Ms. Edwards. Okay, and they are not done yet, so in the end 
we could be talking about a $10 billion plant, and we still 
can't assure all of the safety considerations will be made.
    Mr. Lochbaum. Going back to an earlier question, one of the 
things that France is doing--France is the vendor of that 
reactor that is being built. In order to try to market it 
elsewhere, they are taking some of the safety features out to 
reduce the price tag of the plant.
    Ms. Edwards. Thank you, and with that, I yield back.
    Chairman Broun. Thank you, Ms. Edwards.
    I now recognize Dr. Harris for five minutes.
    Dr. Harris. Thank you very much, Mr. Chairman. Thank you 
for a second round so we can clear up some of these questions.
    Dr. Sheron, very briefly in a minute or less, can you 
outline the evidence that our plants are not safe?
    Mr. Sheron. Our plants are not safe?
    Dr. Harris. Yeah, because there has been discussion that 
our plants aren't safe. Is there any evidence, scientific 
evidence, any evidence, injuries in the United States in the, 
you know, use of nuclear power for civilian use, anything like 
that. Is there any evidence that our plants are not safe?
    Mr. Sheron. I am not aware of any.
    Dr. Harris. Okay, thank you. Now, your office is 
considering updating spent fuel safety studies to estimate the 
relative consequence of removing older fuel from the spent fuel 
pool and placing it in dry storage. Have you specifically 
studied the additional risk associated with storing spent fuel 
onsite at operating reactors, as well as not operating and 
decommissioned reactors versus storing the spent fuel in a 
centralized geologic repository?
    Mr. Sheron. No, that we haven't.
    Dr. Harris. And is that something you think deserves closer 
examination, to answer that question about spent fuel? Where is 
it safer to store?
    Mr. Sheron. I am probably not qualified to answer that. I 
think, you know, what we look at is if there is not a 
repository, is it safe to store the fuel in an interim, you 
know, location such as onsite in dry casks?
    Dr. Harris. But not a question of whether--because you, I 
guess, make the practical assumption there may not be another 
repository, so that is probably why you haven't looked at it, I 
imagine, because it is simply a theoretical possibility?
    Mr. Sheron. Well, I just don't know.
    Dr. Harris. Okay, thank you.
    Mr. Lochbaum, thank you for coming and testifying. You 
stated up front, you know, in your testimony that your 
organization's goal was to minimize the inherent risk of 
nuclear energy, and I take it that if you could make it safe 
that it would be something that would kind of satisfy your 
organization's search for something to minimize climate change, 
for instance.
    But with that in mind that your organization wants to 
minimize the inherent risks, what is the organization's 
position or your position on how to manage our stockpile of 
nuclear waste? Do you think it is safer to leave it onsite at 
the 100-plus individual sites we have, or put it at a single 
location that is geographically isolated, away from population 
centers, underground, miles underground?
    Mr. Lochbaum. We talked to that subject to the president of 
the Blue Ribbon Commission on the American Nuclear Future last 
august, and what we recommended was centralized interim storage 
for the permanently shut down plants where the only hazard left 
is spent fuel. Transfer that to some centralized location. We 
didn't specify it was above ground or below ground, but----
    Dr. Harris. So you do think that is a good idea?
    Mr. Lochbaum. Yes.
    Dr. Harris. Mr. Barrett, given your experience at the 
Department's Office of Civilian Radioactive Waste Management, 
what do you think about that?
    Mr. Barrett. I fully agree. I believe we also need a 
geological repository for the permanent disposal of the waste 
that our generations have been making now for 40, 50 years and 
not just give this problem to our great grandchildren. So I 
think this country needs to move forward with Yucca Mountain, 
or if it has a better facility, let us have the better 
facility, but let us move forward while we are alive.
    Dr. Harris. And I take it you feel--that is not only for 
decommissioned plants, but that is even for the spent fuel when 
it cools down enough even to be shipped from operating plants.
    Mr. Barrett. The decommissioned plants should be the first 
to go, and we have the two plants up in the northwest where 
there is a tsunami risk, even though it is in dry storage, that 
risk should not be there at all. There are almost a dozen of 
these old facilities. These should be the first to move but 
then we also need to start removing spent fuel from the 
operating plants, too, and reduce that risk as well.
    Dr. Harris. Sure.
    And finally, Dr. Sheron, would you please describe where 
the NRC currently is in its licensing efforts for the next 
generation nuclear plant project? How long do you think it 
might be or would take the Commission to issue a combined 
license?
    Mr. Sheron. For the NGNP, we have already started doing 
research at the NRC to support our licensing reviews of that 
design when it is submitted by the Department of Energy. The 
last schedule I saw was that of the application, again, is 
complete and technically defensible. We had a three year review 
schedule, in which case--I'm sorry, at the end of three years 
we would issue the combined operating license.
    Dr. Harris. Okay, thank you very much. I will yield back 
the balance of my time.
    Chairman Broun. Thank you, Dr. Harris.
    The chairman will recognize Mr. Miller for five minutes.
    Mr. Miller. Thank you.
    Quickly on the fact that there have been no new nuclear 
power plants in 30 years, in North Carolina 30 years ago, 
almost all of the cities and municipalities that had municipal 
power systems invested in a piece of one of Duke Power's 
nuclear facilities, and almost all of those cities came very 
close to bankruptcy as a result. It was hideously more 
expensive, even with all the subsidies that we have discussed. 
So it probably is not a regulatory burden, it probably was 
truly just much more expensive, even with the dramatic--very 
substantial subsidies that we have gotten.
    We have had some discussions of storage of spent fuel, 
about Yucca Mountain, about what to do with the closed down 
facilities, but you know--and we haven't even discussed the 
transportation of that fuel. There is not a star Trek 
transporter technology. It will not be beamed from the plant to 
a permanent facility. There are risks and transportation and on 
and on.
    Part of the story coming out of Fukushima has been the 
spent fuel pools. Dr. Lochbaum, what have we learned--should we 
have learned form the Fukushima experience with spent fuel.
    Mr. Lochbaum. When the event occurred at Fukushima, there 
were seven spent fuel pools that contained the radiated fuel. 
There were also radiated fuel in dry casks. That doesn't make 
the news very much because it survived without a problem. There 
was--the spent fuel in dry casks is safe, secure, not leaking 
radioactivity, so the dry cask endured that challenge that the 
spent fuel pools did not. I think it was a reminder--it wasn't 
so much a lesson--that dry cask storage is less vulnerable both 
from a security standpoint and a safety standpoint, and we 
should act upon that lesson rather than just continue to 
document it.
    Mr. Miller. Okay, and you think that that should be 
required by regulation, by the NRC?
    Mr. Lochbaum. It should happen. It would be nice if the 
plant owners did it for safety reasons; if not, then the NRC 
should do it for -- to protect the American public safety, and 
if not then the Congress should make it happen. However it 
happens, we need to make that happen.
    Mr. Miller. All right. Dr. Lochbaum, again, you are very 
familiar with this industry. How would you characterize the 
level of candor of the industry with respect to safety issues 
that have arisen.
    Mr. Lochbaum. Well, the industry does release a lot of 
information. There is very little dirty laundry that is 
withheld from the American public, that is why we know about 
the tornado that hit Surry plant at Brown's Ferry. With the 
exception of security information, there is very little 
withheld from the public, so I think the industry deserves 
credit for that candor.
    I think the candor issue is really internally. There is a 
failure within the plants themselves sometimes to recognize 
problems, that is why Calvert Cliffs had roof leaking for years 
that they tolerated but didn't fix, because there was this 
complacency or lack of candor about realizing what that could 
do that led them to--not to solve the problem they kept seeing 
happen over and over again.
    Mr. Miller. I yield back the balance of my time.
    Chairman Broun. Thank you, Mr. Miller.
    I thank the witnesses for you all's valuable testimony. If 
you are not from the South, you all means all of you all. And 
the Members for all of you all's questions. Members of either 
Subcommittee may have additional questions of you all, and we 
ask that you respond to those in writing. The record will 
remain open for the two additional weeks for additional 
comments or questions from Members. Witnesses are excused, and 
the hearing is now adjourned.
    [Whereupon, at 12:15 p.m., the Subcommittees were 
adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses from Dr. Brian Sheron, Director, Office of Nuclear Regulatory 
        Research, Nuclear Regulatory Commission

        [GRAPHIC] [TIFF OMITTED] 66222.157
        
        [GRAPHIC] [TIFF OMITTED] 66222.158
        
        [GRAPHIC] [TIFF OMITTED] 66222.159
        
        [GRAPHIC] [TIFF OMITTED] 66222.160
        
        [GRAPHIC] [TIFF OMITTED] 66222.161
        
        [GRAPHIC] [TIFF OMITTED] 66222.162
        
        [GRAPHIC] [TIFF OMITTED] 66222.163
        
        [GRAPHIC] [TIFF OMITTED] 66222.164
        
        [GRAPHIC] [TIFF OMITTED] 66222.165
        
        [GRAPHIC] [TIFF OMITTED] 66222.166
        
        [GRAPHIC] [TIFF OMITTED] 66222.167
        
        [GRAPHIC] [TIFF OMITTED] 66222.168
        
        [GRAPHIC] [TIFF OMITTED] 66222.169
        
        [GRAPHIC] [TIFF OMITTED] 66222.170
        
        [GRAPHIC] [TIFF OMITTED] 66222.171
        
        [GRAPHIC] [TIFF OMITTED] 66222.172
        
        [GRAPHIC] [TIFF OMITTED] 66222.173
        
        [GRAPHIC] [TIFF OMITTED] 66222.174
        
        [GRAPHIC] [TIFF OMITTED] 66222.175
        
        [GRAPHIC] [TIFF OMITTED] 66222.176
        
        [GRAPHIC] [TIFF OMITTED] 66222.177
        
        [GRAPHIC] [TIFF OMITTED] 66222.178
        
        [GRAPHIC] [TIFF OMITTED] 66222.179
        
        [GRAPHIC] [TIFF OMITTED] 66222.180
        
        [GRAPHIC] [TIFF OMITTED] 66222.181
        
        [GRAPHIC] [TIFF OMITTED] 66222.182
        
        [GRAPHIC] [TIFF OMITTED] 66222.183
        
        [GRAPHIC] [TIFF OMITTED] 66222.184
        
        [GRAPHIC] [TIFF OMITTED] 66222.185
        
        [GRAPHIC] [TIFF OMITTED] 66222.186
        
Responses from Mr. Lake Barrett, Principal, L. Barrett Consulting, LLC
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Responses from Dr. John Boice, Scientific Director, International 
        Epidemiology Institute
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
                              Appendix II

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

[GRAPHIC] [TIFF OMITTED] 66222.148

[GRAPHIC] [TIFF OMITTED] 66222.149

[GRAPHIC] [TIFF OMITTED] 66222.150

[GRAPHIC] [TIFF OMITTED] 66222.151

[GRAPHIC] [TIFF OMITTED] 66222.152

[GRAPHIC] [TIFF OMITTED] 66222.153

[GRAPHIC] [TIFF OMITTED] 66222.154


                                   

</pre></body></html>
